<html>
<title> - THE GROWING CRISIS IN AFRICA'S SAHEL REGION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              THE GROWING CRISIS IN AFRICA'S SAHEL REGION 

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2013

                               __________

                           Serial No. 113-72

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-167 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Y. Yamamoto, Acting Assistant Secretary of 
  State, Bureau of African Affairs, U.S. Department of State.....     9
The Honorable Nancy E. Lindborg, Assistant Administrator, Bureau 
  for Democracy, Conflict and Humanitarian Assistance, U.S. 
  Agency for International Development...........................    19
Mr. Rudolph Atallah, senior fellow, Michael S. Ansari Africa 
  Center, Atlantic Council.......................................    37
Mima S. Nedelcovych, Ph.D., partner, Schaffer Global Group.......    57
Mr. Nii Akuetteh (former Georgetown University professor of 
  African
  affairs).......................................................    65

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Y. Yamamoto: Prepared statement.............    11
The Honorable Nancy E. Lindborg: Prepared statement..............    21
Mr. Rudolph Atallah: Prepared statement..........................    40
Mima S. Nedelcovych, Ph.D.: Prepared statement...................    59
Mr. Nii Akuetteh: Prepared statement.............................    67

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Question for the record to the Honorable Nancy E. Lindborg.....    92
  Summary of recommendations from the Corporate Council on Africa    93
  Statement from Shari Berenbach of the U.S. African Development 
    Foundation...................................................   101


              THE GROWING CRISIS IN AFRICA'S SAHEL REGION

                              ----------                              


                         TUESDAY, MAY 21, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

       Global Human Rights, and International Organizations, and

         Subcommittee on the Middle East and North Africa, and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. This meeting will come to order. And good 
afternoon to everyone. Today's hearing is intended to examine 
the challenges faced by the nations of Africa's Sahel region, 
especially the spread of both terrorism and trafficking in the 
entire area. These problems alone impose a danger to the 
security of both the Sahel and developed countries, not only 
because of air traffic to West Africa that transits northern 
Mali but also because of the use of the region as a base of 
attacks by Islamic extremists on Western targets. Moreover, the 
preexisting humanitarian crisis is now worsened and as are 
human rights concerns. The underlying political instability is 
becoming equally serious.
    We are holding this hearing jointly because the threat that 
we face goes beyond the jurisdiction of any one of our 
subcommittees. It involves not only Africa's Sahel region but 
also countries in north Africa, especially Algeria and Libya. 
It also involves terrorist groups originating from and based in 
nations outside of the Sahel. It is a sign of how seriously the 
Committee on Foreign Affairs considers this matter that our 
three subcommittees have come together to consider this today.
    There are various definitions of the Sahel, but for the 
purposes of this hearing, we mean the nations of Senegal, 
Mauritania, Mali, Burkina Faso, Niger, and Chad.
    In early 2012, the Government of Mali was overthrown, as we 
all know, in a military coup and subsequently lost control of 
the northern area of the country, which constitutes more than 
half of its land area. Mali had long been considered a stable 
example of African democracy, but, as we learned in our 
subcommittee's hearing in June 2012, the coup and resulting 
loss of so much territory revealed the hollowness and rot 
within the Mali democratic system.
    The influx of well-armed terrorist groups, broken promises 
to neglected ethic groups, lack of adherence to democratic 
principles, and rampant drug smuggling all made the Malian 
Government vulnerable to breakdown.
    We must ask now whether other countries in Africa's Sahel 
region are also more vulnerable than we think. Mali provided a 
staging ground for al-Qaeda in the Islamic Maghreb, or AQIM, 
which is daily becoming an ever-greater threat in the region 
and perhaps globally. AQIM is considered the best funded of all 
al-Qaeda affiliates and, through its ties to other terrorist 
groups, may be funding their activities as well.
    In a July subcommittee hearing last year, we learned that 
Boko Haram, in Nigeria, is not a unified organization but, 
rather, various factions, some of which are focused on 
embarrassing the Nigerian Government but others that have a 
more global jihadist view. It is the latter that we have had 
present in northern Mali and impose a threat to Western 
interests, not to mention the interests of the Mali people.
    Boko Haram attacks lead Nigerian President Goodluck 
Jonathan, last week, to declare a state of emergency in three 
northern states in his country. A radical Boko Haram splinter 
group, known as Ansaru, may have attacked Nigerian troops en 
route to a peacekeeping operation in Mali.
    In Mali, three terrorist groups dominate the rebellion that 
split off the north: MUJAO, a splinter group of AQIM; Ansar al-
Dine, an Islamic Tuareg rebel group; and the MNLA, a more 
secular Tuareg group. These groups have different aims and 
sometimes clash with one another. Nevertheless, they 
collectively pose and continue to pose a threat to the peace of 
Mali and the region.
    As a result of the rebel actions in northern Mali, there 
are currently more than 300,000 internally displaced persons in 
Mali, more than 74,000 refugees in Mauritania, 50,000 refugees 
in Niger, and nearly 50,000 refugees in Burkina Faso. The 
displacement of nearly \1/2\ million Malians strains already 
scare resources in the Sahel, with recipients often in remote 
areas.
    French forces, as we know, were able to forestall a rebel 
advance in southern Mali earlier this year. And an African 
military contingent is in the process of being deployed to Mali 
even now. However, chasing rebels out of Mali's major northern 
towns will be easier than ending ongoing terrorist attacks or 
reconciling ethnic groups whose enmity has grown over the last 
year.
    We look forward to today's witnesses. To our two witnesses 
from the administration, thank you for being here. And I will 
properly introduce you in a moment, but thank you for your 
leadership. It is making a huge difference.
    I would like to now yield to my good friend and colleague 
Ms. Bass for an opening statement.
    Ms. Bass. As always, thank you, Chairman Smith, for holding 
this hearing today.
    I was pleased yesterday to see the formal announcement of 
President Obama's upcoming visit to the continent next month.
    I know we are here today to discuss the Sahel, a vast 
region that stretches from the Atlantic Ocean to the Red Sea. 
Each of the nations in the region experience a unique set of 
challenges, which, as we know, make developing effective and 
far-reaching programs extraordinarily difficult. While the 
crisis in Mali was spiraling out of control, a humanitarian 
crisis was underway that affected tens of millions of people 
throughout the region.
    The U.N.'s 2013 Sahel regional strategy amply illustrates 
the immense challenge experienced by those living in the Sahel 
and nations like our own, who have the resources and desire to 
make a difference.
    The report notes that some of the key drivers to the 
humanitarian crisis include food and security, epidemic 
disease, floods, locust infestation, and the continued crisis 
in Mali and the displacement of populations, both internally 
and those who continue to seek refuge in Mali's neighboring 
countries.
    With an estimated need of nearly $2 billion, CRS reports 
that the U.N. consolidated appeals process will bring aid 
organizations together to coordinate a response to major 
humanitarian crises and disasters and appeal for funds through 
a collaborative and coordinated plan.
    I am pleased that Nancy Lindborg from USAID will be here to 
discuss the administration's new resilience strategy, which was 
launched late last year and is a promising program that I 
believe will fundamentally change the way we think about 
development, particularly in regions and in countries that 
endure repeated cycles of shock. The resilience strategy makes 
sense when you consider these key drivers to these humanitarian 
crises.
    While the challenges are great, there is a window of 
opportunity that can be seized upon. If we work within nations 
and collaborate effectively with donors, the resources 
available can be used to save lives and prevent decline in the 
living conditions of millions of infants, expectant mothers, 
and those that require assistance of some sort.
    Mr. Chairman, today and tomorrow, a delegation from Mali, a 
country that has been the focus of this committee's attention, 
will visit the Congress. I believe you have already had a 
chance to meet with them. This delegation, led by the Speaker 
of Mali's National Assembly, is here to discuss their upcoming 
Presidential election, now slated for July 28th, the security 
challenges that remain in the north of the country and 
opportunities toward economic development, including a focus on 
expanding the country's fragile infrastructure.
    As members of the committee are likely aware, yesterday the 
U.N. announced the appointment of a special envoy who will 
assist in helping Mali regain political stability and security 
in its vast north. And last week, the country was able to 
secure over $4 billion in pledges from donor nations to assist 
in peace and stability efforts and reconstruction of failing 
infrastructure. With these important announcements and the 
transition of the African-led international support mission to 
a U.N. peacekeeping force, I believe these are positive steps 
that will ensure a Malian future that is both peaceful and 
prosperous.
    I want to close by retelling a story. In late February, I 
traveled to Mali to see firsthand the many efforts underway 
that would return Mali to a model democracy for the region and 
the continent. The CODEL that I was on included Senators Coons 
and Isakson as well as Representative Sewell. We had a chance 
to meet with displaced families from Timbuktu who spoke of 
their desire to return to their homes. They sought to return 
home, not merely because that was where they were from but 
because they wanted to return home to vote. They wanted to cast 
their ballots to show the world that the people from Mali 
themselves seek peace, stability, and a return to normalcy. Our 
nation is helping to make this a reality. And we should 
continue to do so throughout the Sahel, a region that greatly 
requires our attention and support.
    Thank you.
    Mr. Smith. Thank you very much, Ranking Member.
    I would like to, before I go to Chairwoman Ros-Lehtinen, 
just introduce to all assembled, Younoussi Toure, who is the 
Speaker of the Malian Assembly. Thank you. You and your 
delegation are very welcome to this hearing. And I appreciated 
the time earlier that we had together. Thank you, Mr. Speaker.
    I would like to now yield to my good friend and colleague, 
the former chair of the full committee, now chair of the 
Subcommittee on the Middle East and North Africa, Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And 
thank you for your steadfast leadership for many decades on 
this important topic.
    We have been following the developments in this region 
closely, but the growing crisis in north Africa and the Sahel 
has been a largely underemphasized threat to U.S. national 
security interests. For far too long, U.S. foreign policy has 
been focused on fighting terrorist groups like al-Qaeda and 
Afghanistan in the Middle East. Yet, we have looked away from 
the serious and growing threats coming from north Africa and 
the Sahel. These areas have become breeding grounds of 
extremist activity as these nations face many internal 
struggles, political instability from dangerous droughts that 
are wiping out entire villages to food shortages, human rights 
concerns, and domestic conflicts. This leaves large swaths of 
land ungoverned. And their borders are porous and easy to cross 
undetected.
    This fragility gives these extremist groups, like al-Qaeda 
in the Islamic Maghreb, AQIM, Boko Haram, Ansar al-Dine, and 
others, the ability to roam freely in the most lawless region, 
setting up safe havens for terrorist activities, and doing 
their dirty work, kidnapping, drug trafficking, arms 
trafficking. And this became evident in the fallout of the Arab 
Spring as Ghadafi fell and arms and fighters from Libya spread 
throughout the region.
    As Secretary Clinton said when she testified before us in 
January, there is no doubt that the Algerian terrorists had 
weapons from Libya. There is no doubt that the remnants of AQIM 
in Mali had weapons from Libya. The weak governments in north 
Africa and the Sahel don't have the will nor the capacity to 
confront these extremist groups. And that leaves the United 
States and our interests extremely vulnerable.
    The administration has yet to develop a plan or even 
recognize the severity of the threat. In his push to end the 
war in Afghanistan, the President justifies a withdrawal 
because he believes that, as he has repeatedly stated, that we 
are close to our goal of defeating al-Qaeda, that we have 
decimated al-Qaeda. Yet, al-Qaeda is still as great a threat as 
ever and is expanding. We see them in north Africa. We see them 
in the Sahel. They are fighting in Syria. I guess they didn't 
get the same memo the President received.
    We have seen a disturbing alliance between drug traffickers 
and these terrorist groups in the region, allowing the 
terrorists to develop new resources to finance their illicit 
activities while at the same time undermining those governments 
and our U.S. national security interests.
    Just last month, we saw a direct narcoterrorism link 
between African nations and the FARC, a U.S.-designated foreign 
terrorist organization. Several top figures from Guinea-
Bissau's military, including the head of its armed forces and 
former head of the Navy, were arrested on cocaine and weapons 
trafficking charges. Both were accused of agreeing to store 
tons of cocaine and buying weapons for the FARC. These criminal 
activities undermine our security in our hemisphere and provide 
the financing capabilities to terrorists.
    The administration needs to come to the realization that we 
are a long way still from defeating al-Qaeda and its influence. 
To confront these threats, we need a strategy, a strategy that 
disrupts the operations of extremist networks, that denies them 
safe havens, and prevents an escalation of emerging threats by 
also targeting precursor conditions that foment instability.
    I look forward, Mr. Chairman and Ranking Member Bass, to 
our witnesses today. Thank you so much for convening this 
timely hearing.
    Mr. Smith. Thank you very much, Chairwoman Ros-Lehtinen. 
The chair now recognizes the ranking member of the Middle East 
and North Africa Subcommittee, Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman, for holding this 
hearing on an issue that, while it may not make the top 
headlines on a regular basis, certainly has significant 
implications on the security of the African continent and 
implications for stability throughout the Middle East.
    Now, the current environment in the Sahel is precarious and 
worrisome. The proliferation of militant groups in the region, 
many of which have ties to al-Qaeda in the Maghreb, pose 
debilitating threats to a region with a history of instability. 
The partnership and coordination of these radical groups can 
and has turned smaller domestic disputes into full-blown 
regional crises.
    With service on commercial networks traversing over state 
lines, the porous borders between countries allow for easy and 
unregulated movement of militant groups, arms, drugs, and other 
contraband that weaken nations and put populations at risk. The 
conflict in Mali exemplifies the trouble that these non-state 
armed groups can cause, not only to a country's security and 
safety of their civilians but to the greater Sahel region as 
well.
    We are seeing how quickly a previously stable democratic 
government can deteriorate, heading toward the likes of 
Somalia. Thus far in Mali, our approach has been one of limited 
engagement, bolstering French and U.N. forces with intelligence 
and other forms of assistance. In the short term, intervention 
was needed and the United States, supported, through the 
Security Council, authorization of an international 
peacekeeping force in Mali.
    We have taken other steps to strengthen the security 
infrastructures in the region, including through bilateral 
agreement with Niger in the presence of UAV base in that 
country, but this should only be one step in our development of 
what I hope is a broader, more comprehensive approach to 
dealing with the instability and violent extremism in the 
region.
    To combat these and other armed groups and to reduce 
further threats to regional and international security, we must 
join with our partners in Maghreb to enhance cooperation and 
prevent the spread of extremism and the flow of arms to the 
Sahel. We must create and implement the comprehensive and a 
multifaceted plan. We must consider what preemptory and 
preventative steps we can take to address the structural issues 
found across the region. Strengthening a country's essential 
institutions can help prevent any need for future military use. 
There are a number of regional challenges that are widespread 
and interlinked, from severe institutional underdevelopment, 
punishing socioeconomic conditions, high levels of poverty, and 
other troubling indicators that I am sure will be the focus of 
today's testimony.
    The problems we are witnessing are long-term challenges to 
the region. I am concerned that they may only be setting the 
scene for additional crises in the future. There must be 
greater international attention placed on the Sahel. That is 
what we are doing today.
    I appreciate your holding this hearing, Mr. Chairman. I 
look forward to hearing from the witnesses. I yield back.
    Mr. Smith. Thank you very much, Mr. Deutch.
    I now recognize the chairman of the Terrorism, 
Nonproliferation, and Trade Subcommittee, Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Since 2012, a coup in Mali, and the 2011 overthrow of 
Ghadafi in Libya, the security in the Sahel has gotten worse, 
not better. At a time when the United States, as it is said by 
the administration, pivots to the East, we cannot leave behind 
our obligation to the continent of Africa.
    Some might think that this is not a problem for the United 
States, but they are wrong. Most Americans, many Americans, 
shall I say, never heard of Mali until this crisis. They 
thought it was an island in the south Pacific. But what happens 
in the Sahel is directly related to our regional interests and 
security here at home. The prevention of an attack on our 
homeland and on our Western allies by radical Islamic 
extremists is a challenge and will be for the foreseeable 
future.
    In the Sahel, al-Qaeda in the Islamic Maghreb, or AQIM, 
appears to be taking advantage of the chaos. That is what 
terrorist groups do. In January, thousands of French troops, 
along with local allied fighters, had to launch a military 
offensive because terrorists had taken over part of Mali, which 
is about the size of Texas. I want to commend the French for 
their efficiency and their quick response.
    Recently the French announced that they will keep 1,000 
troops in Mali for the foreseeable future to consolidate the 
gains and keep al-Qaeda on its back foot.
    Recognizing the scope of this challenge, the United States 
has begun training African forces in neighboring Niger to fight 
in Mali. The United States only has about 1,800 troops in all 
of Africa, but 4,000 more are on the way to train African 
forces.
    Due north in Algeria, al-Qaeda has brigades of radical 
killers aided by their brothers in Tunisia. Fortunately, the 
Algerian National Popular Army is doing its best to fight al-
Qaeda.
    The seriousness of the situation in Algeria hit home with 
us after the extremists attacked a gas plant on the border of 
Algeria and Libya. AQIM-linked terrorists wanted to seize the 
plant in the hopes of creating a massive explosion and killing 
everyone in the area. Fortunately, they were unsuccessful but 
not before gunfights and the follow-up rescue mission resulted 
in the death of plant workers from nine different countries. 
Three of those killed were Americans, two of them being Texans. 
And one of them was my constituent, Victor Lovelady from 
Atascocita, Texas. He was an energy worker, and he was killed, 
not just because of what he did but because of who he was. He 
was killed because he was an American.
    A radical Islamic al-Qaeda group by the name of the 
Signatories in Blood--what a lovely name that is--claimed 
responsibility for this terrorist attack. They are a spinoff of 
AQIM. And they seek to destroy us and kill us indiscriminately. 
This is the real world. This is not a fiction story.
    We have asked the Algerian Government for Victor Lovelady's 
personal effects, but we haven't gotten them back yet.
    We have learned from the past couple of years that we are 
not good at predicting threats. I hope we can better understand 
today the nature of the terrorist threat in the Sahel and 
policy options available to us.
    I look forward to the testimony of our witnesses.
    Mr. Smith. Thank you, Chairman Poe.
    I now yield to the ranking member, Brad Sherman, from 
California.
    Mr. Sherman. Thank you.
    Several groups have rebelled against the central Malian 
Government for independence in northern Mali just in the last 
1\1/2\ years. The Tuareg tribes in northern Mali have had major 
socioeconomic and political grievances against the Bamako 
government and have rebelled in the past.
    Ghadafi supported this movement. And many Tuaregs fought 
for Colonel Ghadafi as he struggled to stay in power. Before 
returning to Mali, Tuaregs took a large amount of sophisticated 
weapons with them, including a huge number of surface-to-air 
missiles looted from Libyan weapons depots. The Libyan weapons 
reinvigorated a longstanding rebellion and expanded it into a 
major conflict.
    We should learn from this lesson as we look at Syria. The 
outcome in Syria is important to us. The outflow of weapons 
from Syria may turn out to be even more important.
    Returning to looking at Mali in the Sahel, we should note 
that the MNLA, the National Movement for Liberation of Azawad, 
is fighting to create an independent country that would have 
less than 1 million people as far as we can tell and would 
include only half Tuaregs in the Sahel region. This seems to be 
an unrealistic objective from so many standpoints, including 
the world's general consensus that the borders in Africa are 
inviolate and that messing around with those borders could only 
lead to huge numbers of conflicts.
    The MNLA was initially backed by Ansar al-Dine, the 
extremist Islamic group. Then that group and smaller Islamic 
groups began imposing a harsh version of Sharia law in some 
areas. Many of these extremist Islamists are foreign jihadist 
fighters. By July of last year, the MNLA had a falling out with 
the Islamic groups over their vision for the future of northern 
Mali. Ansar al-Dine and the other Islamic groups seemed to have 
the upper hand. And then France intervened, as we all know, in 
July 2012 to beat back the advance on Mali's central 
government. And France has deployed thousands of troops with 
the aid of the United States, both in terms of aerial refueling 
missions, drones, other logistical support.
    Among the questions raised there, is the Malian Government 
capable of defending itself and its territorial integrity? And 
for how long will it need French assistance to do that?
    We are still haunted by Colonel Ghadafi's legacy. We are 
facing the consequences of the arms leaving Libya. What can be 
done to both continue to contain weapons in Libya, which is 
still not a stable country, as recent events or relatively 
recent events in Benghazi illustrated? What can we do to make 
sure that we don't have more outflows of weapons from Libya?
    We need to examine the role of Saudi and Gulf states and 
well-connected, wealthy individuals operating with the tacit 
support of their governments in funding Islamic extremists in 
the Sahel and elsewhere. We need to ask what can be done to 
stop drug smuggling in the Sahel. And how big a problem is 
that? And who is earning the profits? And what are those 
profits funding?
    And we need to ask whether the Tuareg have legitimate 
concerns and what can be done to meet those legitimate concerns 
without profiting the bad actors that have been operating in 
northern Mali.
    We have a lot to learn. We have some excellent witnesses. 
And I yield back.
    Mr. Smith. Thank you very much, Mr. Chairman.
    We welcome back Ambassador Yamamoto, Donald Yamamoto, who 
is no stranger to the Africa Subcommittee having testified 
several times before. He is Acting Assistant Secretary of State 
for African Affairs, having served since 2009 as the Principal 
Deputy Assistant Secretary for the Bureau of African Affairs at 
the U.S. Department of State. His distinguished career has 
included serving as U.S. Ambassador to Ethiopia from November 
2006 to July 2009 and as a Deputy Assistant Secretary of State 
in the Bureau of African Affairs from 2003 to 2006.
    We will then hear from Nancy Lindborg, who has testified 
before our subcommittee on the Eastern African famine. She is 
the Assistant Administrator for the Bureau for Democracy, 
Conflict, and Humanitarian Assistance at USAID. She previously 
spent 14 years as President of Mercy Corps, where she focused 
on international development.
    During her time with Mercy Corps, she also served in a 
number of positions where she worked on issues relating to 
foreign relations and foreign assistance and, again, like 
Ambassador Yamamoto, has a very distinguished background.
    Ambassador Yamamoto?

STATEMENT OF THE HONORABLE DONALD Y. YAMAMOTO, ACTING ASSISTANT 
SECRETARY OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Yamamoto. Thank you very much for your 
graciousness.
    And I submit a longer version for the record.
    Mr. Smith. Without objection, it will be a part of the 
record.
    Ambassador Yamamoto. Thank you, Chairman Smith, Ros-
Lehtinen, and Poe, and Ranking Members Bass, Deutch, Sherman, 
and the other members of this committee, for the opportunity to 
testify to you today.
    The countries of the Sahel face a complex series of 
interconnected and ever-evolving challenges. The 80 million 
people of the Sahel, representing roughly 10 percent of the 
sub-Saharan Africa's total population live in some of the 
world's poorest countries, which consistently rank at the 
bottom of any human development scale.
    The security vacuum following the Libyan revolution and the 
crisis in Mali exacerbated the Sahel's longstanding political, 
economic security and humanitarian vulnerabilities. Instability 
in Mali and increased arms flow from Libya into the region also 
collided with a humanitarian crisis brought on by drought, poor 
harvests in the region already burdened by chronic poverty and 
food insecurity.
    Addressing the Sahel's many challenges demands a 
comprehensive approach. We are working closely with regional 
countries and organizations to improve their capacity to secure 
porous borders and challenge terrorists and transnational 
criminal networks.
    The Trans-Sahara Counterterrorism Partnership, TSCTP, is 
the United States' primary vehicle to assist countries in the 
region to improve the counterterrorism capacity capability and 
capacity to control border areas. Algeria, Burkina Faso, 
Mauritania, and Chad are currently using training and equipment 
provided under TSCTP to contain the threat of AQIM and other 
extremist groups.
    Sahel countries have played an active role in supporting 
the French and African-led military intervention that has 
pushed extremists back into the isolated areas in northern 
Mali. Chad's role in Mali has been significant. Burkina Faso 
and Niger have also each contributed around 670 soldiers to the 
African-led International Support Mission in Mali, AFISMA.
    The United States is in the process of providing up to $96 
million to support AFISMA troop and police-contributing 
countries, including Niger and Burkina Faso. Improving security 
in the Sahel, however, requires more than counterterrorism 
responses. The acute security and humanitarian challenges 
facing the Sahel today demand a robust international response.
    Our short-term successes may be fleeting if we fail to 
address the longstanding political and economic fragility and 
render the Sahel susceptible to crisis and conflict. Poor 
governance, weak democratic institutions, and a lack of 
development and economic opportunities cultivate fertile ground 
for instability. Improving governance, strengthening democratic 
institutions, and increasing economic opportunities, 
particularly for the young, therefore, are central to improving 
Sahel's prospects for long-term stability and security. This is 
recited in the U.N. Security Council resolution 2100, which 
articulates a comprehensive approach to addressing the 
multifaceted problems facing Mali. And this is also to a 
conference that my colleague and I attended in Brussels to 
address this issue.
    While Mali and the Sahel remain extremely vulnerable, there 
are signs of progress. Niger, for instance, has achieved 
remarkable political and economic reforms since returning to 
democracy after the 2010 coup.
    Mali is also moving forward. The United States cosponsored 
resolution 2100 and joins the international community in 
supporting Mali's plan to hold Presidential elections in July. 
The creation of a Malian Peace and Reconciliation Commission 
signifies another important step forward. Elections and 
national reconciliations are crucial in setting Mali back on 
the path toward peace and security.
    And so, with this, I welcome your questions.
    [The prepared statement of Mr. Yamamoto follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ambassador Yamamoto, thank you very much.
    Ms. Lindborg?
    Ms. Lindborg. Thank you.

    STATEMENT OF THE HONORABLE NANCY E. LINDBORG, ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lindborg. Good afternoon. Thank you, Chairman Smith, 
Ranking Member Bass, and members of the other subcommittee 
leadership: Ros-Lehtinen, Poe, Deutch, and Sherman. Thank you 
for assembling us today for this important topic.
    As Acting Assistant Secretary Yamamoto noted, he and I were 
at a conference in Brussels last week, where 80 nations came 
together to support Mali, which is an important development. 
During that event, President Traore of Mali noted how grateful 
he was for the international support and the fact that terror 
had abated. And he commended us to address the root causes of 
this crisis, with good governance as the priority. And his 
comments, as many of you understood, really addressed the 
complex challenges that fact the Sahel, where we have 
insecurity, weak governance, chronic underdevelopment that 
combine to result in great vulnerabilities to drought, to 
conflict, to terrorism. And these vulnerabilities have kept 
millions in the Sahel in a state of poverty and perpetual 
humanitarian crisis.
    I have visited four countries in the Sahel since the Fall 
of 2011. Without question, there are bright spots. In Senegal, 
with the peaceful transfer of power in their last elections, 
women attained 43 percent of the parliamentary seats. A 
civilian energetic government in Niger that has withstood the 
recent pressures, remarkable farmer-led regreening efforts in 
Niger and Burkina Faso. However, the challenges in this highly 
complicated region have humanitarian and security implications 
that, as you have noticed, we absolutely must stay focused on.
    So four ways that USAID is tackling these challenges: 
First, continued humanitarian assistance, life-saving for a 
region that is buffeted by continual shock. In 2012, the third 
drought hit the Sahel in less than a decade. It affected 18.7 
million people, 8 million people were in need of emergency food 
assistance.
    Thanks to the early warning systems that we have invested 
in for the past several decades, we saw signs of this drought 
as early as the Fall of 2011. We were able to move in 
prepositioned assistance and I believe forestall a much worse 
crisis.
    However, as that drought was coming forward, the conflict 
worsened in northern Mali. Malians fled to the south and across 
borders to communities that were already stretched by drought.
    In 2012 and 2013, we have provided over $550 million in 
humanitarian assistance to the drought-affected and conflict-
affected families. And this brings me to our second area of 
focus, which is building resilience.
    Even in the best of times, the Sahel has high malnutrition. 
And shock after shock keeps millions in perpetual crisis. We 
know that these will continue to happen. And what used to be 
10-year cycles of drought are now every other year. Galvanized 
by the Horn drought, followed by the Sahel drought, we have 
launched a resilience agenda, with the goal of reducing chronic 
crisis because of chronic poverty. We are working with 
international development partners to get ahead of the crisis 
and enable families and communities to weather these shocks 
more effectively. We have increased our team in the Sahel. And 
we have our development and humanitarian teams working together 
to design joint programs.
    Our third area of focus is governance. This is fundamental 
to stability, to sustaining our resilience and our development 
gains, and to withstanding the inevitable shocks. The March 
2012 coup in Mali vividly illustrates this.
    Going forward, legitimacy will be essential for the 
sustainability of any democratic transition. We are working in 
Mali to support this return to democracy, as we are working to 
support and consolidate democracies in Niger and Nigeria and 
elsewhere in the region.
    Assistant Secretary Yamamoto has spoken about our efforts 
to counter violent extremism. And we continue to work as part 
of the interagency on the interagency Trans-Sahara 
Counterterrorism Partnership to complement our relief, 
resilience, and development efforts.
    None of these shocks will be defeated overnight. And the 
heart of progress will be legitimate accountable democratic 
governance. This is vital to ensuring that we have an 
alternative to extremism and to protecting precious development 
gains in the face of inevitable shocks for our own national and 
economic security and for the people of the Sahel who have 
already endured so much.
    Thank you very much.
    [The prepared statement of Ms. Lindborg follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Ms. Lindborg, thank you very much for your 
testimony. And, without objection, your full statement will 
also be made a part of the record.
    We do have three votes on the floor. I thought I would ask 
some questions and then we would go into a brief recess. Then 
we will come right back and go to the other members for their 
questions if that is okay.
    Let me just ask first, earlier today, as I mentioned, I had 
a very good meeting with Malian Speaker Toure, who is obviously 
the former Prime Minister as well. And we spoke about a number 
of issues, including the challenges of the July election. And I 
wonder if you might just speak to whether or not that election 
can occur in a way that would be free, fair, and inclusive.
    We also talked about malaria. I chaired a hearing just a 
few days ago with Admiral Ziemer. We had Mark Dybul, who now is 
Executive Director of the Global Fund, who told us that we are 
at a tipping point. There is a lack of bed nets, despite the 
best efforts of the international community, including the 
United States, and that the nets do not last forever. You know, 
once they are 2 to 3 years old, they have to be replaced. When 
there is a crisis like we have seen in Mali, infectious 
diseases and parasites are also opportunistic and could gain a 
foothold.
    I wonder, Ms. Lindborg especially, if you could speak to 
that? You spoke eloquently to the hunger issue. Maybe you could 
elaborate a bit on what the issues are, the challenges of 
malaria and other infectious diseases.
    We also had just a few days before that with Dr. Frieden, 
who talked about multi-drug resistance and resistance in 
general. You talked about the resiliency efforts. Well, 
resistance is something we are all concerned about when 
antibiotics fail to do their magic. So if you could speak to 
those issues, I would appreciate it.
    Ms. Lindborg. Sure. First of all, for the July elections, 
we are working very closely with international partners and 
certainly with the Malians to do two things. First is support a 
reconciliation approach. One of the issues is addressing the 
fact that so many Malians felt disenfranchised and not a part 
of the overall conversation.
    We are supporting both that national reconciliation 
approach as well as support for the mechanics of the election. 
Clearly one of the important issues is ensuring that the many 
refugees and IDPs, internally displaced people, have an 
opportunity to vote. And UNDP along with UNHCR are very much 
focused on ensuring that there are those kinds of more 
inclusive registration approaches.
    There are two parts to the election. One is the 
Presidential, which is scheduled for July 28th. And it is 
unclear whether the legislative elections will be able to be 
held then or scheduled for later in the fall. It is critical 
that Mali have the elections as a means of returning to its 
democratic roots and taking a pathway forward.
    On your second question about malaria, this is critical. 
You are absolutely right in that, even as we look at very high 
malnutrition rates, at the height of the drought, the largest 
killer of children under five in Burkina Faso was malaria. For 
that reason, as part of the resilience agenda--and it is a 
little bit like your three subcommittees coming together--we 
have brought together across sectors our teams in USAID to put 
together a more comprehensive, focused approach that includes 
our efforts to combat malaria and our family-planning 
approaches and our food insecurity approaches together so that 
we are able to address some of the root causes across the 
sectors and have a more potent and effective approach to, even 
as we save lives, setting the pathway to development.
    Infectious diseases are always of concern when you are 
moving into emergency. And a lot of our efforts, in addition to 
our health programming, are also in water sanitation.
    And the final piece is that, in addition to the bed nets, 
it is the behavioral change that is so important, which is why 
you want to package these together.
    Mr. Smith. Was the Brussels conference a success?
    Ms. Lindborg. It was----
    Mr. Smith. Go ahead. Please. I am sorry.
    Ms. Lindborg. It was very successful in that it both raised 
a lot of money, it kept the attention of the issue with the top 
of international attention. And there was a combined agreement 
among most of the nations there that it was imperative for Mali 
to return to its democratic roots and to have national 
reconciliation as key to moving forward.
    Mr. Smith. We are almost out of time, but just if you could 
spend a moment on the State Department-led, pan-Sahel 
initiative charged with detecting and responding to suspicious 
movement? Has it worked? Are we happy with the coordination?
    And the other point, just like these committees coming 
across lines, I know that the State Department is looking to do 
so because there is a split in terms of jurisdiction. Is the 
coordination much improved in your opinion? And what might we 
expect in terms of new initiatives?
    Ambassador Yamamoto. Yes. As far as the coordination 
between not only the interagencies but also with the 
governments involved in the Sahel, it has been very cooperative 
and focused on really clear common agendas and themes.
    And then one last step, going back to the elections in 
Mali, I think the elections in Mali would be critical to 
establishing and moving forward on the whole wide range of 
issues because by going into democracy issues, we can address 
the other issues; in other words, release our funding and 
assistance which have been held up by the sanctions of 7008.
    But more important is that it is part of the linchpin of 
the other crises that we must address, which is the 
humanitarian crisis, the reconciliation in the north, and also 
the conflict with the extremists.
    Mr. Smith. Ms. Bass?
    Ms. Bass. Yes. I know we are getting ready to break to go 
to votes, but I just wanted to begin my questioning. And I can 
finish it when we come back.
    I wanted to know if you could briefly discuss the role that 
AFRICOM may be planning to secure the areas. And if you don't 
have time to finish, we can finish when I get back.
    Ambassador Yamamoto. You know, I defer to the DoD 
colleagues on AFRICOM, but, just shortly, in the Mali context, 
what AFRICOM and DoD are not only the refueling for French 
aircraft but also intelligence sharing, which we are doing 
multi-agency.
    And the other issue is providing strategic lift within the 
region to help some of the 15 African countries who are 
participating in AFISMA go into Mali to provide security 
assistance.
    Mr. Smith. The subcommittee stands in brief recess, subject 
to the call of the chair. I do apologize to our witnesses for 
the delay.
    [Brief recess.]
    Ms. Bass. Thank you very much. And sorry you had to wait, 
but we are through with votes now. We won't be interrupted 
again.
    I know as I was running back and forth to my other hearing, 
that you mentioned the conference in Brussels. I wanted to know 
if you could describe the character of the conference and what 
new information may assist our committees.
    And then I know it was reported that over $4 billion was 
pledged at the conference. I wanted to know how much was the 
U.S.'s contribution and what stipulations were made to ensure 
that Mali takes appropriate steps to hold elections.
    Ms. Lindborg. Hi. Thank you.
    You know, it was very important that 80 nations came 
together at that moment to signal support for Mali. The funding 
that was raised is not all new money, I think, as the French 
noted. It includes money that is already in play. It also 
includes money that will be forthcoming from a variety of 
countries based on benchmarks achieved by Mali. But what is 
essential is that it provide that immediate assistance right 
now, especially as Mali moves forward to address national 
reconciliation in elections.
    We announced $32 million of new money that is primarily for 
humanitarian assistance and for specifically the refugees. But 
we also noted the funds that we have already put toward Mali, 
which includes the $550 million of humanitarian assistance 
regionally and of that $7 million of democracy rights and 
governance support specifically for Mali and our funding for 
health programs and, specific to Mali, humanitarian.
    So I think that it was a very positive conference. We 
commended the French and the Europeans for hosting it. And we 
look forward to working with the international community on 
what is a very important, and it won't be easy, road to bring 
Mali back to democracy.
    Ms. Bass. Well, you know, I wondered when we were there in 
February and had met with the President and asked him how he 
was going to be able to hold elections with a couple of hundred 
thousand people displaced. And maybe you could respond to that, 
you know, whether there is the capacity to do that, how it will 
be done, who will be monitoring.
    Ambassador Yamamoto. Thank you.
    Let me just start with a couple of points and turn to my 
colleague. The issue is that registration in the north, as you 
know, in the last election was about 36-37 percent of the 
people voting in 2007. And for credible elections to take 
place, you really need to have the registration of the minority 
groups, ethnic groups up in the north: The Tuaregs, the 
Songhais, and the Arab groups.
    Nancy Lindborg and I talked to President Issoufou of Niger. 
And we said that we would like to work for it and registering 
the refugees. There were about 400,000 who are internally 
displaced or in refugee camps. And so registering them, we 
figured that we can probably get to those magical numbers and 
to make it a reasonably credible election.
    The French are also working in Kidal. So, therefore, you 
can have registration of groups in that area.
    It is not the cleanest. It is messy. But at least we need 
to work for it. The elections are critical. The elections would 
be critical in holding because from there, we can do the other 
things that we need to do.
    Ms. Bass. And you referred to the internally displaced.
    Ambassador Yamamoto. That is right.
    Ms. Bass. The externally displaced?
    Ambassador Yamamoto. Like Tunisia, Mauritania, Chad, to 
register them as well in the refugee camps.
    Do you want to add?
    Ms. Lindborg. I would just simply add that USAID with our 
efforts to provide election support is very focused on ways to 
include the internally displaced populations. There are a 
number of measures underway, including outreach, information 
campaigns. There will be a need, as you probably heard when you 
were there, to continue to augment the capacities of the 
Elections Commission.
    There is a proposal to introduce biometric identification. 
And all of these measures we strongly believe must be 
accompanied by a reconciliation campaign, that there is that 
opportunity for dialogue so that people trust the elections and 
enable them to feel compelled. So there is both the mechanics 
of it and then the communications campaign and ways to make it 
a more inclusive, legitimate process.
    Ms. Bass. And could you speak some about USAID's 
humanitarian efforts in the greater Sahel?
    Ms. Lindborg. Sure. You know, as I noted in my comments, we 
started in 2011, in the fall, with efforts to provide 
humanitarian assistance to the drought and doing so in a way 
that lay the foundation for greater resilience, even as we 
saved lives, overlay by all this displacement. So we have both 
the ongoing efforts to address the drought.
    And one thing we kept in mind is that in the north, there 
was only ever 10 percent of the population that was in need. 
And in Mali, the greater need always was in the south with the 
food insecurity just in terms of proportion.
    So the resilience agenda is giving us a way to address 
that, even as we look at ensuring we reach those populations in 
the north that are coming out of, really, a reign of terror 
over the last year.
    Mr. Smith. Mr. Weber, the gentleman from Texas?
    Mr. Weber. Thank you, Mr. Chairman.
    I guess this question is for Ms. Lindborg. Am I saying that 
right? Are we able to identify a lot of the countries in the 
Sahel that are going to be U.S.-friendly, for example? And if 
they are coming out of a background, terror, for example, how 
do we identify them and get the word out that we want to help 
them become stable economies, stable governments? Are we able 
to identify a list and then prioritize that list so that we can 
begin to work in the ones that need the most priority firstest? 
Is that a word?
    Ms. Lindborg. Let me start. And I may ask my colleague if 
he wants to jump in on that.
    Mr. Weber. Okay.
    Ms. Lindborg. But our humanitarian assistance is provided 
on the basis of need. And we work directly with communities in 
need, not through the governments. Our development assistance 
is very much about working in ways that create more 
accountable, more transparent, and more inclusive democracies, 
even as we invest also in health and agricultural programs.
    In the Sahel, there are a range of governments. And there 
is a range of ways in which we are providing support to 
strengthen both our democracies but also investments in their 
economic and social indicators.
    Mr. Weber. Without going through the list and counting the 
countries, is it seven, ten, twelve?
    Ms. Lindborg. We have development programs and development 
missions primarily in Senegal. And of that spine of countries, 
we did in Mali. As Assistant Secretary Yamamoto said, the 
development activities are suspended until the return to the 
democratic roots of Mali.
    We are increasing our programming in Burkina Faso and in 
Niger. And in Chad, we have primarily just humanitarian 
assistance, as is the case in Mauritania.
    Mr. Weber. Is there another country that you will identify 
that is probably going to need our help next; in other words, 
developing events, where you could say, ``On a timeline basis, 
we are going to be here next''?
    Ms. Lindborg. You know, one of the problems with the Sahel 
is that it is chronically underdeveloped. And you could argue 
that it could absorb significant new development investments 
across the whole region. That is one of the reasons that we 
have partnered very closely with the European Union in an 
organization called AGIR, the Alliance for Global Investments 
in Resilience because we know that we need to partner to 
leverage the investments that everybody brings to the table, 
both to build resilience and improve more inclusive governance 
at all levels, local level, national, and regional.
    Mr. Weber. Okay. Did you want to weigh in, Mr. Yamamoto?
    Ambassador Yamamoto. I guess just a general comment is that 
not only coordinating with the other organizations because this 
is not only a U.S. issue. It involves the regional states but 
also the diaspora. You know, you were mentioning how many 
countries are like the United States. You know, we did a survey 
about, you know, 70 percent of Africans like the United States. 
And why is that? Because we didn't have the colonial baggage, 
but more importantly is you have a large----
    Mr. Weber. You said 70 percent?
    Ambassador Yamamoto. 70 percent.
    Mr. Weber. Okay.
    Ambassador Yamamoto. You have a large diaspora in the 
United States who provide assistance and support. And that is 
also another group that we can rely on to help engage and try 
to resolve problems in Africa.
    Mr. Weber. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much.
    Mr. Cotton?
    Mr. Cotton. Thank you, Mr. Chairman.
    Mr. Yamamoto, I would like to ask a couple of questions 
about Mali and its implications. I am new to Congress, but when 
I saw the news in 2012 the Mali Government was struggling, that 
it might fall and France had to intervene, I found that to be 
somewhat surprising. I thought Mali was one of the more stable 
examples of a Sahel country. So I would like to know, one--do 
you share that assessment, first? Second, if so, what do you 
think we got wrong in our assessment? What did we miss in 
thinking that it was one of the better examples of stability in 
the region? And, third, how does that assessment bear on what 
other countries might face similar instability?
    Ambassador Yamamoto. Let me take a first crack and then 
turn to my colleague. I think the issue is, you know, you look 
at these democratic countries or democratic-leaning countries. 
This year it is fragility of institutions within these 
countries. Mali is a very democratic country, where the 
institutions were very fragile. And so when you say, ``Where 
did we fail?'' I think the issue is not so much the failure. I 
think what you look at is there is a lot of number of issue. In 
other words, you had the influx of extremists coming into the 
area. You have the rise of the Tuareg rebellion. You have 
missed cues and missed plays by the government in making a 
military operation in the north, rather than dialogue as some 
of their main input into trying to reach out to these ethnic 
groups.
    And so there is a combination of problems within these 
countries. What we are trying to do right now is stabilize it 
to first return democratic values and good governance to make 
the governments accountable to the people. And second is to 
address the terrible humanitarian crisis of 400,000 displaced. 
The other issue is to promote a dialogue with the government 
with all of the ethnic groups and tribal groups. And the final 
point is to address the issue of extremism. So that is the kind 
of thing.
    Do you have anything you want to add?
    Ms. Lindborg. I would just underscore that any time you 
have marginalized populations, even if you have successful 
democratic elections, if you do not address those grievances, 
you are setting the stage for longer-term problems and the 
possibility of the kind of conflict that broke out. And we see 
this country after country. And it speaks to the importance of 
having an inclusive and very legitimate democracy, not just 
elections.
    Mr. Cotton. I believe that other countries in the region 
are expected to contribute peacekeeping forces for Mali. I know 
that Mali right now is the center of counterterrorist 
operations in the region. Is there a concern on your part that 
the peacekeeping forces from those other countries could weaken 
their defenses and encourage Islamic jihadists to move out of 
Mali and into neighboring countries?
    Ambassador Yamamoto. That is a very good point. They right 
now are speaking with the commander for the AFISMA, the African 
troops. In AFRICOM, you know, we have 15 countries, which speak 
3 different foreign languages. And the capacity and capability 
is very different from each troop but because these countries 
are committed to stability in Mali, because it is not only for 
Mali but for the stability of the region.
    So are these countries also facing problems? Of course, 
they are, not only from extremist operations but also 
internally from weak institutions, fragility. And so by them 
coordinating and developing and providing assistance in troops 
to the Mali operation, that speaks volumes of their commitment, 
not only to Mali but also to their own defense as well.
    I think it is going to take time. It is going to take a lot 
of effort. But we wanted to emphasize that this has to really 
be an African-led, African-managed operation because ultimately 
they bear the full responsibility for what happens in that 
area.
    Mr. Cotton. When France intervened, they took the lead, but 
the United States very promptly had to provide assets like 
strategic airlifts, refueling, intelligence surveillance, 
reconnaissance. I am aware of those things as an ex-soldier.
    Are there other kinds of critical assistance that the 
United States Government provided to either the French or to 
the Mali Government that we should have in mind as we look at 
the possibility of having to intervene to support 
counterterrorist operations elsewhere in the region?
    Ambassador Yamamoto. I defer to my DoD colleagues, but on 
the French side, of course, we did the presidential draw-down 
authority. So, in other words, we had the $19 million total for 
the fuel, for the aircraft, and then intelligence we collected. 
And the other thing is to provide lift for the equipment into 
the area but also for helping for lift of some of the African 
troops into Mali.
    As far as doing military operations or other things for the 
Malian Government, you would have to go to the DoD side, but 
what we are trying to do is make sure that AFISMA and the 
troops there have the equipment they need and the support, 
logistical support, and also we are going to continue to 
contribute so they can develop a command and control center, 
coordinate and integrate all of these troops and have good 
interoperability. I think that would be critical.
    Mr. Cotton. Thank you.
    Mr. Smith. Mr. Cotton, thank you very much.
    I just want to observe that Speaker Toure is still here, 
the Speaker of the Malian Parliament, the former Prime 
Minister. And I would just say, Mr. Speaker, Tom Cotton, who 
just asked the questions, one of the greatest things about our 
committee and, really, our Congress is the diversity of 
backgrounds. Tom spent 5 years on active duty. He is a graduate 
of Harvard Law School. So he combines those disciplines. And he 
was deployed twice to Afghanistan and to Iraq. So he asks 
questions that are relative to military issues, as do other 
members, all of whom have come here with a great deal of 
background sometimes.
    Thank you.
    Mr. Cotton. And I did join the Army after having gone to 
law school and practiced law, which may affect the depth of my 
legal skill and knowledge.
    Mr. Smith. That is great. Thank you, Tom.
    Mr. Cook?
    Mr. Cook. Thank you very much, Mr. Chair.
    I have to apologize for my voice. I have laryngitis. I 
haven't been giving a lot of speeches, obviously.
    But I just wanted to go back to your comment about the 
popularity of Americans, which I think obviously was a shock to 
a lot of people here. And I appreciate you explaining why. Now, 
how we could take advantage of that--and I think you already 
answered the question in terms of, you know, support those 
activities, just the geography of the region there with so many 
different countries and the different languages and ethnic 
groups and how some type of--whether it is the African Union or 
some type of loose federation of African states, what is the 
glue, the common denominator? Because I agree with you. I think 
that is the only way. You know, Africa governed and the chances 
made by Africa's outside interlopers are not going to do it, 
but I think we have the opportunity to help something like 
that.
    I think what I am looking for is some kind of common 
denominator to enable something like that, where it is just 
very hard for me when I look at a map and you look at the 
different countries and just remember some of the countries, 
Ouagadougou, the capitals. And what was it? Nouakchott that was 
the capital of Mauritania and very, very difficult. Most 
Americans don't understand it and particularly looking at a 
map.
    And then I wonder if you might have any--if you could 
elaborate on what kind of denominators that we think are most 
successful for the Americans to have an impact in that area.
    Ambassador Yamamoto. I think each and every day, the United 
States has a tremendous impact, not only from the agencies but 
from American industry. I mean, here today, we have NGO groups, 
faith-based groups doing a lot of work in Africa and doing good 
work.
    I think one of the things that you raise as a very 
important issue is, how do you bring all of these countries 
together? The African Union is one forum. You know, we assigned 
an American Ambassador to the African Union several years ago. 
Other countries have followed suit. We are trying to build 
capacity and capability. And then we are looking at the 
subregional groups, such as ECOWAS in the West, CEEAC in the 
central, SADC in the South. You have got all of these different 
organizations and regional groups.
    And I think to build capacity, to build the ability to 
coordinate, and to face challenges on their own, that really is 
kind of the golden objective we are trying to do.
    And I think the careful coordination between these 
organizations and the good will that we have with these groups, 
I think we are looking at I think successes now. And they can 
multiply in the future.
    And so I think the--not only American foreign assistance 
but mainly American good will. Look what the United States does 
today. We brought in justices recently to look at the American 
system. That really helped influence how they view, how justice 
and law and the ability to talk with you, sir, and the chairman 
on how the Parliaments and the Congresses should work and 
operate. That also helps to promote good governance.
    But I will turn to my colleague from USAID.
    Ms. Lindborg. You know, when I was in Senegal shortly after 
their Parliamentary elections, I met with a group of women who 
were ecstatic because 43 percent of the new Parliamentarians 
were women. And I was congratulating them. And one woman looked 
at me and said, ``You know, this didn't happen overnight. We 
have been working on this for 25 years. And it has been with 
extraordinary help from the American public.''
    I say that to illustrate two things: 1) that progress is 
possible; and, 2) that it is going to take a while. But it is 
about helping countries, communities, civil society, private 
sector feel an ownership stake in the future of their country, 
and supporting their pathway forward. And we are seeing, as I 
noted, bright spots. Niger has an extraordinary program called 
the Nigerieus Nourish Nigeriens that is a very energetic 
comprehensive look at how to create greater economic 
opportunities for their people. And it is when people feel 
included in that future and understand the support that the 
United States is providing for that that you work on both of 
those fronts.
    And the U.S. has been a tremendous partner for support for 
Africa that I think is borne out by these public opinion polls.
    Mr. Smith. Two very brief questions. One, when it comes to 
inclusion in partners, are we including the faith-based groups? 
And to what extent? If you could maybe say a word or two and 
then provide a breakout, if you will, a spreadsheet?
    And, secondly, we have 300,000 IDPs and, of course, what, 
150,000-plus refugees. I know we are working hand in glove with 
the UNHCR and other friends, but what is the unmet need when it 
comes to those IDPs and refugees? Is there a dollar amount that 
could be affixed to what that need is and maybe a breakout as 
to what the commodities are and other kinds of items that are 
now missing?
    Ms. Lindborg. Well, first of all, we have wonderful faith-
based partners throughout the region. And the importance of 
those groups is that they have been there through thick and 
thin working at the community level. And we are honored to have 
them as partners and be delighted to provide you a breakout of 
who is doing what where. It is an impressive list. And we are 
through that able to leverage the generosity of the American 
public, which provides private support through these groups as 
well so that we are able to greatly increase the overall 
assistance that we provide. It is part of the American 
generosity.
    On the needs of the IDPs and the refugees, there is a new 
U.N. appeal for 2013 of $410 million. And I am delighted to 
provide the committee a breakout of what that goes to, what has 
come in, both from the U.S. and from other donors.
    Mr. Smith. What is our contribution to that $410 million 
appeal?
    Ms. Lindborg. Our contribution to date just for Mali, 
refugees and IDPs, is $181 million, just over. And so there are 
both ongoing needs for just essential----
    Mr. Smith. Is that the same thing? The $410 million appeal 
is also the Mali aid or is that different?
    Ms. Lindborg. Right. That is just Mali.
    Mr. Smith. That is just Mali.
    Ms. Lindborg. That is just Mali. And so it is both ongoing 
needs.
    Mr. Smith. Okay.
    Ms. Lindborg. It is also we have been very focused on 
ensuring that the impact on drought-affected communities is 
addressed as well because many of them have gone to stay with 
communities that are already deeply stressed from the drought.
    Mr. Smith. Now, in terms of the assistance, I was part of a 
launch with seven African first ladies 2 years ago. You might 
recall it very well, the First 1,000 Days Initiative, from 
conception to the second birthday. How well are we doing in the 
Sahel region with regards to backing up that unbelievably 
important first 1,000 days of life? Because if you get that 
right, of course, you are more apt to get the rest of it right 
too.
    Ms. Lindborg. Yes. You are absolutely right. That is 
critical. And we have increased our focus on nutrition during 
those first 1,000 days. And one of the most important things we 
have done from the emergency side is increased the development 
of the highly digestible therapeutic foods that are so critical 
for those first 1,000 days and refocus some of our assistance 
programs to work both on the behavioral changes as well as the 
more nutritional products that can address malnutrition, 
without which you have impacts for the rest of an individual's 
life.
    Mr. Smith. Can I ask you, in terms of probiotics, has USAID 
integrated a probiotic mindset? Obviously, antibiotics have 
greatly increased the ability of people in their gut to carry 
the good flora. Where are we in terms of promoting good 
probiotic efforts, the good organisms?
    Ms. Lindborg. Yes. There are some interesting new studies 
out that show that clean water can be even more important than 
antibiotic treatments for addressing some of the 
gastrointestinal diseases that affect children and create 
malnutrition. So part of that is investment in greater clean 
water and sanitation approaches.
    Mr. Smith. Well, my point is--and maybe you can take it 
back--is, you know, the whole idea of immunity. And there is a 
growing body of knowledge that immunity is almost exponentially 
enhanced by having the right probiotic mix in a person's gut, 
gut flora.
    Ms. Lindborg. Yes. We can give you more details on that.
    Mr. Smith. Thank you for your testimony. I think we are 
finished with members. And thank you for your very honorable 
and effective service. Thank you.
    Mr. Smith. I would like to now welcome our second panel to 
the witness table, beginning with Mr. Rudolph Atallah, a 21-
year veteran of the U.S. Air Force who retired as a lieutenant 
colonel. He served in the Office of the Secretary of Defense 
and as Africa counterterrorism director, where his 
responsibilities included advising the Secretary of Defense and 
other senior officials on counterterrorism policy, strategy, 
and serving as an adviser to the State Department numerous 
Embassies across Africa.
    He has been a featured guest on programs on NPR, CSPAN, and 
the National Geographic Channel, where he has discussed African 
piracy and successful resolution of the 2009 Maersk Alabama 
incident.
    We will then hear from Dr. Mima Nedelcovych, who is a 
partner in the Schaffer Global Group, a Louisiana-based project 
development, finance, and implementation company focused on 
agro-industrial and renewable energy projects in the emerging 
markets in Africa and Latin America. For the Schaffer Group, he 
is the lead partner in a sugar project in Mali. He recently 
established an independent consulting practice on trade 
facilitation, project development, project finance, and public-
private partnerships in Africa.
    And then we will hear from Nii Akuetteh, who is an 
independent policy researcher analyst who specializes in U.S. 
foreign policy, African development, and international 
relations. He often publishes in American and African journals 
and appears in Aljazeera, Voice of America, the BBC, and other 
TV and radio outlets analyzing African issues. He has been a 
Georgetown University professor, journal editor, and leader of 
advocacy organizations working on three continents. He created 
and led two organizations focusing on democracy and conflict in 
Mali.
    Colonel, if you could begin?
    Mr. Atallah. Thank you, Mr. Chairman, distinguished members 
of the subcommittee.
    I submitted a written statement for the record.
    Mr. Smith. Without objection, yours and all of the others' 
full statements will be made a part of the record.

  STATEMENT OF MR. RUDOLPH ATALLAH, SENIOR FELLOW, MICHAEL S. 
             ANSARI AFRICA CENTER, ATLANTIC COUNCIL

    Mr. Atallah. Since my testimony on the situation in Mali 
last June, things have escalated dramatically, causing further 
instability in the Sahara and the Sahel. Many skeptics 
underestimated the Islamist threat and claim that the Saharan 
branch of AQIM was only focused on kidnappings for ransom and 
illicit trade, rather than jihadist activities. A year later, 
Mali is faced with a new threat: Suicide bombers, a phenomenon 
never seen in the Sahel before. In fact, since 9 February, Mali 
has experienced 12 suicide attacks in the cities of Timbuktu, 
Gao, Kidal, Meneka, and now Gossi, which happened on 9 May. 
These are primarily areas that were once under Islamist control 
after the secular MNLA was elbowed out by AQIM and its allies. 
I am concerned that in time, AQIM's influence and tactics will 
grow more sophisticated and violent following a similar 
evolution seen by the Nigerian jihadist group Boko Haram from 
2011 to present.
    The root causes of terrorist escalation in Mali and across 
the region are complex and multi-faceted. Understanding the why 
of this present violence and the logic of its perpetrators 
requires us to look more closely at some of the principal 
regional issues that contributed to this current crisis.
    First, militants linked to al-Qaeda, hardened by years of 
survival under oppressive regimes, have been revived in this 
region since the start of the Arab Spring. Seasoned fighters 
from Afghanistan, Algeria, Iraq, Syria further bolster their 
skills and intent, helping them to expand their networks, 
strengthening their fighting capacities and resolve to recruit 
new militants.
    Terrorist training camps exist in several parts of the 
region, and every state is vulnerable to AQIM, which has been 
massively bolstered by weapons flow, porous borders, and 
security vacuums in the Sahel, in combination with fragile 
regional governments.
    The recruitment narrative of AQIM has also been given new 
life via Western intervention in Mali and renewed, increasingly 
severe focus on Western targets. The recent Amenas in Algeria; 
the hostage crisis; and the September 11, 2012 attack on the 
U.S. consulate just exemplify some of these patterns.
    Another catalyst for violence, violent extremism in Mali 
and the broader region is the confluence of marginalized 
peoples, pushed into harsh border areas, and violent extremist 
organizations. Militant Islamists, like AQIM, Boko Haram, 
MUJAO, Ansar al-Dine, and others prove attractive to some 
within marginalized ethnic groups, coerced into a veritable no-
man's land, seeking social justice and political recognition.
    Despite the French intervention in 2013, of this year, 
designed to route out AQIM, the former has most certainly not 
concluded its project in Mali. For the better part of a decade, 
proselytization, intermarriage, a variety of inducements, and 
alliances with tribes have left AQIM with many friends in 
northern Mali and the region.
    Moreover, AQIM fighters have opted for tactical withdrawal 
versus the supposed strategic defeat that some claim. Some 
militants clearly remain in the country, evidenced by the 
increased suicide bombings, while others have merely taken 
refuge in Libya, Algeria, Sudan, Niger, Mauritania, and 
elsewhere.
    In sum, the French, Chadian, and Malian efforts in the main 
pushed against AQIM and their allies out of Mali. The network 
remains resilient and has emerged less effective but more 
clandestine in nature.
    In contrast to Mali, Morocco stands out as a model for a 
reform in progress in the region. It continues to fight 
terrorism through the strengthening of the security and justice 
systems and emphasizes a preventive dimension against violent 
extremism and organized crime through reform in the economic, 
political, social, religious, and educational fields. And they 
have actually put this all in the Amazigh, or the Berber, 
language.
    Nevertheless, like other countries in the region, Morocco 
is concerned with the risks of infiltration by terrorists 
fleeing Mali via illegal immigration channels. For example, 2 
weeks ago, Moroccan authorities dismantled two terror cells 
that, according to news agencies, were believed to be in 
contact with jihadists in Mali.
    While there are few proverbial silver bullets to solve this 
complex problem set, there are several approaches that could 
make a difference. And let me provide a few of them.
    The first recommendation is, as we were discussing with the 
previous panel, to bring USAID back into the fight in the key 
territories in northern Mali and the surrounding region. Couple 
that with the support of U.S. and allied special forces 
initiatives. From Tindouf, Algeria to the Aouzou Strip in 
northern Chad, the arc of instability, as the U.N. calls it, 
the populations of this under-governed region receive little 
support and are left exploited by various political actors, 
including AQIM and its allies.
    The second recommendation pertains to addressing border 
insecurity in the region. Borders between countries of the 
Sahara remain porous and open to terrorists and smuggler 
activity, both of which weaken governance and promote 
corruption, not to mention global insecurity. It is time that 
these countries of the region receive assistance to secure and 
monitor a movement along their borders. This applies not only 
to land traffic but also to air.
    Finally to effectively counter the jihadist narrative 
wielded by AQIM, a comprehensive and expertly crafted 
information operations campaign is necessary for the region. 
Violent extremists associated with AQIM experience far too much 
safe haven in social, print, and televised media, and this must 
be rectified. Recently, news agencies flocked to write about 
AQIM's new Twitter account, which gained 5,000 new members in 2 
weeks. And it is noteworthy that the Syrian terror group Jabhat 
al-Nusra, Somalia's al-Shabaab, and Tunisia's Ansar al-Sharia 
are all followed by this new AQIM Twitter account. Countering 
AQIM's media expansion and online havens is crucial to our 
long-term success against violent extremism in the region.
    Thank you.
    [The prepared statement of Mr. Atallah follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you very much for your testimony and 
concrete recommendations for the committee and for the 
administration to consider.
    Mr. Nedelcovych?

  STATEMENT OF MIMA S. NEDELCOVYCH, PH.D., PARTNER, SCHAFFER 
                          GLOBAL GROUP

    Mr. Nedelcovych. Thank you, Chairman Smith and honorable 
members of the Foreign Affairs Committee.
    I appreciate the opportunity to speak. I was asked to speak 
from a business perspective in dealing in Africa and especially 
in the Sahel. I like the forum. I am new to this, but there is 
a full statement. So I can just speak off the cuff.
    I have been in Africa pretty much all of my life. You can 
tell from the accent. And thank you for attempting pronouncing 
Nedelcovych. I come out of the Balkans. So we know a little bit 
about tribal warfare. I left Belgrade at 1 year old, grew up in 
Ethiopia, actually my first 10 years, before coming to the U.S. 
and making this a home. So I have spent most of my life, one 
way or another, in Africa. I have been on the public side. I 
have been on the private side. I have been going many moons ago 
when USAID first discovered the private sector, brought in as 
an adviser to see how the private sector could assist, was 
named to be the U.S. executive director of the African 
Development Bank in the late '80s under the first father Bush 
administration.
    So I since then have joined Schaffer. Schaffer is in the 
agro industry. We have been managing developing agro-industrial 
projects throughout the continent. We have also been in very 
difficult places. We did the major sugar state development in 
Kenana, in Sudan, got pulled out of there for various reasons. 
As you know, it happened that we got pulled out on U.S. 
sanctions.
    Most recently and in the last decade, I would say, we have 
been working a major, major project in the Office du Niger in 
Mali. Our attempts are always bringing in these small farmers 
to the investments into the schemes that we develop. It is the 
only way we see in the end--and I like this term 
``resilience.'' I have to remember that. I always thought of it 
as economic growth, but I guess it is one and the same, the 
flip side of the same coin. The importance in the end is very, 
very simple for me. I went back. I actually have a Ph.D. in 
political risk. I went back and thought what I wrote back in my 
dissertation.
    There was a sociologist, Maslow, and how theory of the five 
critical requirements, the pyramid of needs. And the very basic 
two needs at the bottom of the pyramid are your food, the 
water, the survival; and then shelter and employment. And if 
those needs are not met, you will have always the opportunity 
under whatever guise for extremism to come. You will find 
radical solutions. I would call them momentive solutions.
    But it is very easy. People have nothing to lose, have 
nothing to lose. And that is where we come from the business 
standpoint, Mr. Chairman. Looking at difficult areas, I would 
argue that U.S. business--and we are there in agro industry, 
certainly.
    There is a huge Niger River coming through that area. There 
are many, many opportunities to develop agro-industrial schemes 
that bring in all of the small farmers, but for all of this to 
happen, you have to have security. We put together a program of 
over $600 million for the Office du Niger near Segou and 
Markala that basically went on hold. We were to go into the 
major expansion on April 15th. And something happened in 
February. So we are on hold. Who loses? It is the people there 
in the end because what we have done now? We have concentrated 
on projects elsewhere.
    I could use an example in Nigeria, where we are up in 
Sokoto in a rice program. Things got heated up, became very 
difficult work while we are not developing the program, the 
project down in the middle states. Who loses? The people in the 
north.
    So, in the end, my plea is really, to the extent possible--
and I think USAID has been moving in this direction with my 
various names, global development alliance or other, to bring 
in the corporates, get people in that are in, especially people 
like us, who are in the agro-industrial area. We operate in 
rural areas. We operate where poverty is.
    And the only way you are going to get out of poverty is to 
create growth, create jobs. Otherwise you are going to have 
desperate people. And desperate people do desperate acts. So, 
for me, Mr. Chairman, that is the one take-away I really wanted 
to pull out of this discussion with further questions.
    Also, I will be remiss to not say I sit on the board of the 
Corporate Council in Africa. I am one of the founding members, 
among the parties to cut hunger and poverty in Africa. So I can 
sit and have the debate on the public policy side or from the 
straight corporate investment standpoint, but I will argue that 
it is always when those two come together. That is the key. 
That is where we can have the long-term development money 
coming in with the commercial money to make growth happen.
    We have--and I have copies--submitted a couple of months 
ago recommendations to the Obama administration from the 
Corporate Council in Africa on doing business in Africa. And I 
would also like to conclude by saying the continent, by and 
large, the trend is very, very positive. The issue is what 
happens in difficult places like the Sahel and how can public 
and private interests come together to actually really continue 
on the basis of resilience, but let's also get on. This is one 
world we must also all grow and people must have some reason to 
not be desperate.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Nedelcovych follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Smith. Mr. Nedelcovych, thank you so very much for 
that. And your recommendations, I have seen that. I would like 
to at least take some of that and put it into the record. And 
we will follow up on those recommendations as well, I think. I 
thank you for that.
    Remember, you are not just speaking to the Congress. You 
are speaking to the Speaker of the National Assembly of Mali. 
So I hope he heard your message as well.
    I would like to now ask Mr. Akuetteh if he could proceed.

  STATEMENT OF MR. NII AKUETTEH (FORMER GEORGETOWN UNIVERSITY 
                 PROFESSOR OF AFRICAN AFFAIRS)

    Mr. Akuetteh. Chairman Smith, thank you very much for 
including me in this hearing this afternoon. And I thank you 
and the other committees for placing so much attention on an 
important Africa issue.
    Point of personal privilege. Because I am immigrant from 
Ghana, I am an African, I would like to extend to you the 
appreciation of fellow Africans for the attention that you and 
the committees are placing on this very important issue.
    I also have to say that, as was mentioned by Mr. 
Nedelcovych, there is some good news in Africa. The AU is 
celebrating its 50th anniversary. The President is visiting 
three countries noted for the advanced, you know, progress in 
democracy. There is fast economic growth.
    So I think it is appropriate that this hearing is focusing 
on a troubled spot, a big area that is under stress, but it 
should be noted that there is good news on the continent.
    Now, the region that we are talking about and in the 
invitation letter, about nine countries are covered. So we are 
talking about a very big area. I would also even add that there 
is one area we should include, which is the Western Sahara, 
because some of the issues, some of the problems in the Western 
Sahara are spilling over into Mali in terms of fighters with 
grievances who may be involved in Mali.
    Now, the problems that the Sahel, as defined in this 
hearing, is facing are very serious problems, from terrorism 
all the way to bad governance through lack of democracy. So 
this is a region in stress.
    And always when I look at U.S. policy, it seems to me that 
there is a very big unspoken question by the American people, 
what has this got to do with me? What has this got to do with 
us? And I think it is great to focus on this problem because it 
does affect U.S. interests. Problems in the Sahel which are 
stressing the countries does affect the U.S. Therefore, it 
seems to me the imperative is very clear for the U.S. to help 
these countries cope with their problems that they are facing. 
Otherwise, when the problems get out of hand, they spill over 
into the neighborhood, it will not be just one or two African 
countries if the problems get out of hand. It will affect you 
clearly.
    It might even because--one of the problems that were cited 
has been cited is drug trafficking from Latin America through 
West Africa. I think research has shown that there is a 
reverse. There is drug money going back into Latin America and 
even arms.
    So this can also affect U.S. interests in its own 
hemisphere. It can affect U.S. interests in Europe. So this is 
a very important issue. And any help that the U.S. gives 
African countries to cope with them is really I think a good 
investment in its own interests.
    Now, one of the things that strikes me is that I think in 
the area we are talking about, the U.S. interests really picked 
up after 9/11. It has been 10 years. So a key recommendation,a 
key point in my view is that there needs to be a review of U.S. 
strategy in the region. After 10 years and after the problem in 
Libya, now we have Mali. It seems to me that a thorough review 
needs to be done so that lessons can be learned and a new 
strategy can be crafted.
    Until that thorough review is done, it seems to me there 
are areas where improvements can be made. I think that 
terrorism is a problem, not just for the U.S. but even for 
African countries. And I think the way to deal with it is to 
push hard on democracy because it seems to inclusive democratic 
government goes a long way in preventing, at the very least, 
homegrown terrorism.
    In the region that we are looking at also, Mali is clearly 
the epicenter. So it seems to me that special attention should 
be paid to Mali. And I would like to see the U.S. play a 
leading role, not in the security area, because, you know, we 
have AFISMA and the U.N., but in the reconstruction of Mali, 
what just happened in Brussels.
    I would like for the U.S. to--it is my recommendation that 
the U.S. play a very strong role in that, particularly in two 
areas: The area of the elections. I have to confess, Mr. 
Chairman, that I am one of the people who is nervous about the 
elections because the recent example in a couple of other 
African countries, Cote d'Ivoire, next door, and Kenya, that we 
need to make sure that, as important as the Malian elections 
are, we have to have contingency plans and make sure that they 
happen well.
    And, secondly, I think the Mali's reconstruction plan, 
their reconciliation and dialogue committee, I think the U.S., 
with its history and its diversity and its democracy, can be a 
special help to the U.S. So it is also my recommendation that 
that should be a big focus in the way that the U.S. can help 
Mali and, therefore, the Saharan region going forward.
    I thank you again for including me.
    [The prepared statement of Mr. Akuetteh follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony.
    At least let me ask you on that last point about the 
elections, are you concerned about the July elections? Nothing 
focuses the mind like a deadline. And sometimes when deadlines 
are delayed, it leads to a certain ennui and a belief that 
things can spiral out of control again. So it seems to be 
positive if it is in July, but if you could elaborate on your 
concerns? Are there any other panelists who would want to touch 
on that?
    Mr. Akuetteh. Yes. And I am particularly grateful for that 
question, too, because I do see the need for elections. I mean, 
there is a lot of good that elections can do Mali. Even the 
issue of the MNLA and Tuaregs, you need to know who represents 
whom. Who does the MNLA speak for? Who are other people who 
speak for other communities? And elections will help with that.
    You do the research, and you will see that a lot of people 
say that they want a government environment that the people 
themselves elected. So I am saying, on the one hand, it is 
important and good to have elections. At the same time, because 
elections are so important, we need to make sure that they are 
done right. And that means a lot of preparation from 
registering people. And the fact that you have so many 
displaced people in Mali causes me some nervousness.
    So, thinking about it, I agree with you that there should 
be a deadline to make sure that we move quickly. But I also 
think we need what I will call electoral insurance policy. 
Given the difficulties that Mali has, it seems to me there 
should be contingency plans to say, what do we do if we run 
into this particular circle or that particular circle? So I 
think the election should be done. They should be done as fast 
as possible. But we should also be aware of the off circles and 
the dangers that bad elections can lead to.
    Mr. Smith. Dr. Nedelcovych?
    Mr. Nedelcovych. Chairman, I would agree that it is 
essential to have a deadline. I will draw from an example next 
door in Guinea. We are involved in a rice program. There the 
elections, we are halfway through the administration 2\1/2\ 
years later, we haven't had the legislature.
    So I think the most critical thing is you will not have the 
perfect elections, clearly, but one must get on with having as 
good an election as you can. Is July too soon? One could argue 
perhaps, that it is important, that it is perceived as 
legitimate, and that people can, in fact, vote. But I certainly 
if it were to be pushed back would not push back very far 
because what is happening is, in essence, all of us who are on 
hold waiting for this to happen--and it is those very 
investments that will in the end stabilize the country and 
bring back the growth to make it go forward.
    So I would argue better and imperfect elections sooner than 
a perfect one later.
    Mr. Smith. Thank you.
    Mr. Atallah?
    Mr. Atallah. Mr. Chairman, just briefly if I may comment? I 
agree with pushing for elections. However, there are some 
underlying issues in the country that have been festering now 
since the independence of Mali in 1960. And if we don't address 
local grievances in the divide between north and south, I think 
what we return to is a forced election and the continued 
problem sets that remain in the country. Those need to be 
addressed for fair elections going to the future. We have to 
address those, those internal dynamics. And those need to come 
right now, before the elections, in order to bring everybody 
together.
    Thank you.
    Mr. Smith. Dr. Nedelcovych, you mentioned in your written 
testimony the old saying that capital is a coward and that it 
goes into flight, obviously, when there is a crisis. And, yet, 
you cite the examples of China, India, and other nations who 
continue to invest in Africa. Why are American companies so 
reluctant?
    As you might know, I have introduced legislation. It is co-
sponsored by my friend and colleague Ms. Bass. And we are 
building a co-sponsor base, hopefully a large group that would 
put a very heavy emphasis on exporting to Africa. Obviously, a 
rising tide raises all of the boats.
    We know that AGOA is working, but it is only one initiative 
among what should be many. Why are we so reluctant?
    Mr. Nedelcovych. Thank you for the questions. I have been 
living the last 20-plus years since leaving the ADB.
    You know, Mr. Chairman, when you say capital is a coward, 
it needs certainty. Okay? That certainty can be bad. Certainty 
can be good. I need to know what that certainty is so I can 
mitigate. This was actually the irony to some extent that, 
really, Mali, even we that have been operating all over, 
Angola, Sudan, I mean, you name it, we, are a bit surprised.
    If you dig back far, you would say, ``Well, but, in 
essence, as the colleague said, these were discrepancies from 
the north and the south and the country.'' Maybe why am I 
surprised that it boiled over? It is those uncertainties that 
are difficult for American companies. Now, at the same time--
and I refer the patchwork--if you look at 60, 70, 80 percent of 
the countries, most of them, the trend is very positive.
    I look at my own reactions here. At some point, I was about 
ready to hang up the boots. You know, I have been doing this 
for many years. And I said, ``You know what? This is crazy.'' 
When the continent finally for 30 years--20 years, I have been 
scratching odds and ends sort of deals.
    Now real deals are happening. There are real business deals 
happening, Mr. Chairman. And it is not just oil and gas. It is 
the growing middle class. There is a consuming substantive 
group. When you start speaking of Nigeria, you start speaking 
of Nairobi in Kenya, you start speaking of Tanzania, there are 
so many centers now of growth where investment is interesting.
    What I hope the lesson will go back to both the political 
and society in the unstable areas is, you know what, ladies and 
gentlemen? If you want that capital, that capital needs to have 
some stability. Otherwise, it will very happily go elsewhere. 
So help us come because then we all win. That I think is the 
message that needs to come out.
    Thank you.
    Mr. Smith. Thank you.
    Let me ask you, Mr. Akuetteh. You mentioned that there is a 
great burden and stress being placed on Mali's neighbors 
because of the refugees that are spilling over the border. 
Could you perhaps elaborate on what that burden is? And is 
there an expectation that those individuals will be able to be 
repatriated back to their homes?
    Mr. Akuetteh. Thank you again. I think it is connected to 
my answer to the elections question because, of course, these 
people, one of their fundamental rights, the displaced people, 
both in the southern part of Mali and in the other regions, is 
the right to vote. So if elections are being held, we have to 
think about how do we allow them to cast a vote?
    In terms of the stress placed on the other countries, I am 
very glad that this hearing is about the region, not just about 
Mali. Mali's neighbors are also stressed. It just so happens 
that because of the Tuareg problem and the MNLA coming from 
Libya, Mali imploded. But the other countries are also at risk. 
And, therefore, it is a question of countries that are already 
at risk that now have had to play host to the refugees from 
Mali.
    It seems to me it is clear that they are industrious in 
terms of food, in terms of water, in terms of the impact on 
very fragile agricultural communities.
    Now, I am glad for the discussion in the previous panel. I 
think the one area where the U.S. has been doing a pretty good 
job is the humanitarian assistance, especially in the region. 
But I still think that these are countries that really do need 
help. And it will be good to increase that.
    And, if I might, on the question of U.S. companies and 
their presence in Africa, which is an issue that concerns me, I 
would just add that, you know, Africans are also puzzled. I 
mean, I would echo your questions. We would like to see more 
involvement from the U.S.
    The elephant in the room is the presence of the Chinese. 
And I will actually say that, I mean, I have been in the U.S. 
for quite a while, going into my fourth decade. And what I 
don't understand, I think that the U.S. has far more positive 
assets if you look at the Chinese versus the U.S. There are 
people like me, African-born, but, of course, there is the 
African community, the African-American community, here, which 
is a big asset.
    So, frankly, it puzzles me that with all of those assets, 
with the U.S.'s democracy, as Ambassador Yamamoto said, the 
U.S. is very popular in Africa. So if you look at that, if you 
look at the experience with capitalism, if you look at the 
black community in this country, it seems to me the U.S. should 
have a much bigger presence.
    And I, too, like you, don't understand why U.S. companies 
haven't made bigger progress into the continent.
    Mr. Smith. You know, on that point, our legislation would 
try to encourage the diaspora as part of a strategy to be more 
involved with reconnecting and certainly being part of an 
export strategy. So I thank you for your comment.
    Just two final questions and I yield to my friend and 
colleague Ms. Bass. Mr. Akuetteh, you mentioned that in your 
testimony, the Government of Niger has handled the potential 
Tuareg threat much more effectively than the Government of 
Mali. Could you explain what they are doing differently and why 
it has worked better?
    Mr. Akuetteh. Thank you again.
    A lot of this is from the analysis of experts in the area. 
What I do know for a fact, for instance, is that in the 
immediate aftermath of the Libyan problem and when people moved 
south into the countries bordering the south of Libya, one of 
the things that the Nigerian Government did was they said they 
insisted that everybody coming from Libya who wanted to go into 
Niger had to disarm and if they refused to disarm, they cannot 
get in.
    Now, on the other hand, it is not clear how Mali handled 
that, but all of the experts and, in fact, Nigerian officials 
say, ``This is what we did. We said nobody can come in who had 
arms. Otherwise, we are not letting them in.'' It is not clear 
how that was handled in Mali, but we do know that the MNLA, 
which was heavily armed--and I have seen statistics that say 
that some say there were 800 of them, others like 2,000 of 
them. One way or another, they happened to enter back into Mali 
and the rebellion started.
    Mr. Smith. Mr. Atallah, one final question. You testified 
that there was an underestimation of the jihadist intentions of 
al-Qaeda in the Islamic Maghreb. Could you explain as to why 
that was the case? And are we repeating that mistake in your 
opinion anywhere else in the Sahel?
    Mr. Atallah. Thank you, Mr. Chairman. Yes, I think the 
issue has been festering for a very long time; in fact, for two 
decades. Specifically, if I look at northern Mali, GSPC, which 
is a precursor to AQIM, established itself in late 2002, early 
2003. In fact, I was in the northern parts of Mali. At the 
time, I was still in uniform running around looking at the 
problem set.
    Since then, they have intermarried within ethnic groups in 
the north. They have done the same thing across the region. And 
this is where AQIM becomes a threat. If you look across the 
region--and I am going to include north Africa in it--currently 
Tunisia, the fledgling government in Tunisia, is fighting 
affiliates of AQIM in the western side of their border. 
Southern Libya has AQIM. AQIM has direct connections with Boko 
Haram. And the current Government of Nigeria is involved in 
trying to push Boko Haram and Ansaru from the north, with a lot 
of refugees pulling across the border. We have AQIM operational 
in northern Niger and Mauritania and, of course, in Mali. So 
they are all across the region.
    The problem is and what I find amongst peers, my colleagues 
is we try to quantify AQIM saying, oh, they are about 3,000 
strong or 2,000 strong or whatnot. That is irrelevant. There 
can be 10 or 15. It doesn't matter. The fact is that every 
single time the Shura council, which exists in the northeastern 
part of Algeria, when one of their members speaks, they are 
able to incite and bring and leverage people into the fold. And 
this is where we have the issue.
    Today there are over 800 Tunisians fighting on the militant 
side in Syria. Sooner or later, these guys are going to come 
back. Many of them have connections to AQIM.
    So the problem set is not only within the African context 
but outside of that as well. And this is where we are literally 
missing the boat. I think we need to do more.
    And those are the three small recommendations I made. There 
are several others. But we need to get involved in this issue 
across that region of the Sahara.
    Mr. Smith. Thank you so very much.
    Ms. Bass?
    Ms. Bass. Yes. Just following up on that when you were 
talking about AQIM--and you might have referenced it when I was 
running back and forth to committee to vote. So excuse me if I 
am asking stuff you already covered. But do you think that 
there is a degree of coordination between the different 
factions or is it similar to al-Qaeda, where there are spinoffs 
but they are not necessarily working in coordination?
    Mr. Atallah. Thank you very much for your question.
    As far as I understand so far, it depends on where, but 
there is definitely coordination. And it depends also loosely 
on how we define coordination. For example, there has been a 
lot of testimony on what happened in Benghazi, but it is 
understood, at least from experts, that the Sahara branch of 
AQIM, one member specifically, Mokhtar Belmokhtar, was getting 
feed of information, what was going on in Benghazi.
    Currently what is going on in Tunisia, there are members 
there that are specifically battling Tunisian authorities that 
have directly links to the Shura council or to the emir of 
AQIM, Droukdel.
    The same thing within Boko Haram. Boko Haram, for example, 
in Nigeria has had connections to AQIM for a very long time. In 
fact, Abubakar Shekau, the emir of Boko Haram, had one of his 
messages pushed on AQIM media back in 2011. It was an audiotape 
that AQIM kind of facilitated. So there are coordinations here 
and there. And that is part of the issue.
    We know so little about the band of the Sahara Sahel. And 
some of these groups are linked to AQIM not out of ideological, 
you know, views but sometimes out of just necessity of survival 
because AQIM has become the wealthiest affiliate out of all the 
AQ affiliates around the world.
    Ms. Bass. Wealthiest from drug trafficking?
    Mr. Atallah. From kidnap for ransom. And I would say a lot 
of Western countries are to blame for that. You know, over the 
years, 2007, 2008, 2009, we see multiple kidnappings and, in 
return, payments that are provided in return for these.
    The last one was more recently, not even a year ago. You 
had aid workers that were kidnapped from the Tindouf area. And, 
in return, two AQIM affiliates were released from a Mauritanian 
jail. And supposedly AQIM received 15 million euros.
    I was in contact with friends in northern Kidal. They said 
that for the longest time, folks were no longer using the West 
African CFA but they were actually using euros to pay for 
things. That is indicative of how much, how deep-rooted this 
problem set is.
    Ms. Bass. So you are saying the Western countries are to 
blame because they are paying the ransom?
    Mr. Atallah. They are enabling. They are enabling.
    Ms. Bass. What should they do?
    Mr. Atallah. Well, again, this is where--and that is a fair 
question. This is where I think we need to stop enabling and we 
need to really focus on the problem sets. Messaging is 
important. You know, the current recruits that AQIM is able to 
leverage, they have built this over time, but 12 suicide 
bombers never seen in the history of Mali, we are not messaging 
in these problem set areas. We are not dealing with the root 
causes of the problem. In fact, we just put, as I--and pardon 
the expression--a Band-Aid on a sucking chest wound. It just 
doesn't work.
    Ms. Bass. Thank you.
    And I am sorry. I am not going to attempt. Would you 
describe a couple of your businesses? Specifically what do you 
do? And where are you working?
    And, actually, let me ask you about Mali because I have a 
big interest, especially as Mr. Akuetteh said, in promoting 
U.S. businesses and, in particular, you know, African-American 
businesses, their involvement on a continent. And so I am 
wondering, how you do work in Mali? What do you do?
    Mr. Nedelcovych. Thank you, Congresswoman.
    We are in agro industry. We are primarily in the process 
side. So being out of Louisiana, it is sugar cane, cane 
processing. It is rice, rice milling. And it is always the co-
generation of electricity from the agriwaste. So the Mali 
project, in fact, I believe Eric had a chance to speak with the 
people out there when you were in Bamako. It was to be 200,000 
tons of sugar produced, 30 megawatts of electricity, and 10 
million liters of ethanol, actually, for a 10 percent gasohol 
blend in all the gasoline----
    Ms. Bass. And it is in Bamako or around Bamako?
    Mr. Nedelcovych. It is in Segou and Markala in the Office 
du Niger. It is using the strength and the value of water. 
Agriculture is water. And this is why I say oftentimes while 
one looks at the Sahel, its very, very desperate region, from 
an agro-industrial standpoint, I would say quite the opposite. 
You have a major, major river that is coming through that needs 
to be properly harnessed in a sustainable way.
    The key, the key, is absolutely the way you structure it. 
And this comes back to the question of why U.S. investments 
don't go in. Investments that are small are just going to be 
difficult for international investors to come in. So the key 
becomes sizing the investment.
    For agri industry, if you don't scale up, you can't 
compete. Now, that does not mean you dislocate the small 
farmers. What it does mean is literally capture them in the 
scheme as outgrowers. In our case in the 15,000 hectare, 7,000 
were going to be independent small farmers that are being 
brought into modern agriculture, if you will. The same happens 
with our rice schemes now in Nigeria. The key is always 
bringing in the community, bringing in the small farmer.
    And guess what? In the end, that will be what is putting 
the Band-Aid on whatever----
    Ms. Bass. Right.
    Mr. Nedelcovych [continuing]. It that you are placing it 
because then it is those people that will make sure that this 
doesn't get undermined.
    Unfortunately, in Mali, we were about to start up the major 
operation. Had we been there a year or two, I am willing to bet 
the region would act differently. Those would be the people 
protecting our aid workers going in there.
    So I would continue to argue for that combination of larger 
investment, which is interesting foreign national groups, with 
schemes that bring in the smaller. And then there is one very 
important thing, coming back to what Congressman Smith was 
asking. That is, if you take out Nigeria, South Africa, Kenya, 
most of these economies are just simply too small to be 
interesting.
    Ms. Bass. Right, which is why----
    Mr. Nedelcovych. And I hate to say it, but the ECOWASes and 
the economic committees have all spoken very nicely. But, in 
reality, those are not functioning as true common markets. And 
in our case, for example, on the sugar, the state and the Mali 
delegation, the Ambassador knows very well, it is ties to the 
point where now we have taken advantage of being landlocked. 
The advantage is you have got a huge population that grow the 
national markets.
    We don't need to export the sugar. It is not even 
interesting. The price is a lot more interesting for sugar and 
rice in the region. Grow it. But what happens then is if those 
common markets are not functioning,----
    Ms. Bass. Right.
    Mr. Nedelcovych [continuing]. You begin to have to start 
subsidizing the small factories that don't work. The reality of 
the world has to come back in. And that goes also on the 
African side.
    Ms. Bass. Well, I really appreciate what you are saying. I 
mean, one of our challenges here in trying to work with 
businesses to go to the continent is they are afraid to death--
well, I mean, basically, it is our own ignorance of the 
continent. So when we hear a conflict in Mali, we think that it 
is happening all over the place. And we have no geographic 
understanding as to where one country is, you know.
    So you have been able to do this in Mali, in the middle of 
a conflict. And I think that is a really important perspective 
to bring. Even where there is a conflict, you can still 
successfully od business, let alone all of the nations where 
there isn't a current conflict. So I appreciate that.
    And, Mr. Akuetteh, I wanted to ask you about a few things 
that you were saying. You talked about the U.S. playing a 
stronger role. And I wanted to know what your opinion was, how 
U.S. security activities in the region are perceived by the 
governments and populations in the Sahel. So I always worry 
about the U.S. playing a stronger role, but where is that fine 
line between playing that stronger role and then feeling as 
though we have overplayed our hand?
    Mr. Akuetteh. Thank you very much. I think it is a great 
question. And also, especially because you mentioned 
governments and people, sometimes I think that there is a split 
in how some particular U.S. programs may be looked at.
    But it seems to me that, as I mentioned, the U.S. interests 
in the Sahel, West Africa and North Africa, really picked up, 
for understandable reasons, after 9/11. So the issue is 
terrorism and the potential for terrorism.
    And I think it is important to underline that terrorism is 
a problem for Africans as well. I mean, Boko Haram has been 
killing Nigerians. The Embassy bombings killed a lot of 
Africans. So Africans welcome the U.S.'s help in dealing with 
terrorism. I do think there should be dialogue about what 
particular approaches will work.
    Ms. Bass. Right.
    Mr. Akuetteh. I think if there is that dialogue, then we 
don't overstep and don't do things that may make Africans 
nervous. I particularly think that a stress on democracy will 
be a very good way. Paradoxical as it may sound, it will be a 
very good way of dealing with terrorism and potential terrorism 
across Africa.
    So, yes, I want the U.S. to say, ``Look, this is very 
important to us. We want to be engaged,'' but then have a 
dialogue with the Africans, whether regionally or in particular 
countries, as to exactly what will work.
    If I might mention one particular example; for instance, 
training African militaries. I think this is part of the 
strategy for dealing with terrorism in Africa, but in my mind, 
it has to be in three stages. I think the first thing that 
African soldiers need is respect for civilian authority to know 
that an elected President is really their Commander in Chief 
and it has chosen to turn a gun on him.
    I think the second phase for training for African soldiers 
has to be respect for citizens; that is, citizens pay their 
salaries, pay for their uniforms, and it is not their job to 
abuse them. I think if they pass those two phases of tests, 
then for me, you go to the third level, which is how to make 
them better fighters.
    So I would say again the U.S. needs to be involved with the 
Africans and particularly on the training of the soldiers. Make 
sure that they respect democracy and they respect civilian 
authorities.
    Ms. Bass. So taking Mali for an example, do you think that 
what we did didn't work? I mean, because we trained the 
military there. And that is exactly what the military did. So 
is it that it didn't work? I mean, that is always the fine 
line. How do you determine when you have moved from one stage 
to the other?
    Mr. Akuetteh. I think it is a good question here. Without 
ducking the question, I need to display some humility, which is 
why, in fact, an important point in my testimony, and even last 
year when I was here, is that I think the U.S. needs to do the 
most thorough of reviews of their strategy over the 10 years 
and look at everything. Experts will have to do it. I think 
Congress will have a role. Experts in DoD will have a role so 
they can determine exactly what the training went to and what 
it was meant to achieve, where things may have gone wrong, and 
what lessons can be learned from it.
    So in terms of if you look at just the results, of course, 
I think it is disastrous for Mali, but there was the coup and 
the role of the U.S.-trained soldier in that coup.
    Ms. Bass. Right.
    Mr. Akuetteh. It doesn't make the U.S. look good. Even it 
is disastrous for Mali. My point is we need to do a very 
thorough review to find out exactly what happened. From this 
distance, that is all I can recommend because there are details 
I don't know.
    Ms. Bass. Sure. And, you know, I wanted to know about what 
you thought about the people that are running right now for 
President. We have actually met a number of them. And I know we 
have a whole Malian delegation here that I look forward to 
meeting with as soon as this meeting is over. But how many 
people were running for President? I think I have met two or 
three Presidential candidates who have come through the 
Capitol. And what is your opinion of the capacity?
    Mr. Akuetteh. You know, I think my definitive answer is I 
have heard of 12 running. I know that at least one is a woman, 
which is a good sign. On the other hand, as Chairman Smith had 
asked about the elections, I see the value of the elections. On 
the other hand, I am nervous because between now and July is 
not a lot of time.
    Ms. Bass. Right.
    Mr. Akuetteh. And so the way I am linking this to your 
question is that there doesn't seem to be a lot of time to get 
to know the candidates, at least from people like us from the 
outside.
    Now, the talk inside Mali is that many of the candidates 
are from the old political class. So they may be well-known. 
But from an activist like me, what I know is fairly 
superficial, which is that there are about 12 of them. And they 
are vying. And I wish there was more time to do things right.
    Ms. Bass. Well, and I also think it is going to be 
interesting. And, Mr. Chair, maybe it is something that we 
could look at because after the election takes place, what is 
our role going to be supporting whoever it is that is elected 
to help to strengthen their capacity?
    A final question for you. When I was making one of my runs 
back to another committee, you were talking about drug 
trafficking.
    Mr. Akuetteh. Yes.
    Ms. Bass. And I wanted to know if you could expand on that? 
And I wanted to know your thoughts on how you think countries 
in the region can best counter the drug trafficking.
    Mr. Akuetteh. Oh, if I may take the back end of the 
question first? Because in preparing for this testimony and 
some of the research I was doing, one thing struck me which I 
think is a good sign. And I will underline that.
    Former U.N. Secretary General Kofi Annan has actually just 
in January created the West Africa Commission on Drugs. And he 
is bringing a lot of Africans, including former President 
Obasanjo to deal with the drug problem in West Africa.
    Now, what I was saying earlier is that the way I think it 
affects U.S. interests is that these drugs, the experts 
mentioned that you have cocaine, you have meth, and you have 
heroin. The cocaine is coming from Latin America. And, in 
return, what you are getting back into Latin America, of 
course, is drug money, but you are also getting some of the 
weapons that everyone agrees flowed out of Libya. So you are 
getting weapons going to Latin America. Now, I am saying that 
it seems to me that happening in the U.S. hemisphere should be 
of concern to the U.S.
    But, apart from cocaine, the research--and the U.N. Office 
on Drugs has also done a lot of work in West Africa. And they 
are finding out that meth is being produced in some West 
African countries and then exported to east Asia. And the 
heroin is coming from Asia through West Africa into Europe. And 
the big problem this is having on the area, West Africa, is 
three. You have got corruption. You have got democracy being 
contaminated. And then you have got health problems because 
people involved in the drug trade, locals, sometimes they are 
being paid with drugs. And so consumption is also growing. And 
it is a health problem for the Africans. And they are very 
concerned.
    I mean, one thing Kofi Annan said was that we really need 
the help of our friends in Europe and the United States to help 
us deal with the drug problem.
    Ms. Bass. Thank you very much.
    Mr. Smith. Thank you very much.
    You have been very patient with your time. If I could just 
ask a few follow-up questions? And anything you want to add, 
please do. In my walk as a lawmaker--and I have been in 
Congress now 33 years--I often differentiate between criticism 
that mocks, belittles, and takes cheap shots, and criticism 
that is constructive and leads to better outcomes. You did 
listen to the administration witnesses earlier in the first 
panel. You know and you understand the administration's 
policies vis-a-vis the Sahel. I wonder if you could offer this 
panel any constructive criticism that might lead to better 
outcomes.
    Secondly, Mr. Atallah, in your testimony, you heard Nancy 
Lindborg say earlier that while the recent rise of violent 
extremism in West Africa cannot be directly attributed to 
drought, chronic food security, or weak governance, each of 
these factors can indirectly exacerbate instability in the 
region.
    And you made three very specific recommendations at the end 
of your testimony. One is that USAID get back into the fight. 
And you pointed out that there are access restrictions which 
our Embassy imposes and others imposed. If you could elaborate 
on that?
    Thirdly, talk about border security. I wonder if you might 
tell us, to what degree you are talking about. How much? Is it 
technical aid? Is it actual foreign aid that would beef up 
their ability to have a more secure border?
    And, finally, you point out that to effectively counter the 
jihad narrative wielded by AQIM, a comprehensive and expertly 
crafted information operation campaign is necessary for the 
region. And that is, I think, a very profound recommendation, 
but I wonder if you might tell us how that might be done. And 
others might want to speak to that as well.
    The first one would be on constructive criticism and then 
to speak to the three or elaborate on the recommendations that 
you made.
    Mr. Atallah. Thank you, Mr. Chairman.
    Yes. Constructive criticism, I think, sir, you asked the 
question as what is AFRICOM doing. A component of AFRICOM is 
SOCAF. I think SOCAF can be deeply rooted in the fight but with 
restrictions. We are not taking enough steps.
    I know the command is ready. I know the command wants to go 
in. I know they have several plans to go in. However, there are 
some political dynamics that prohibit them from doing so. And 
my first criticism is I think we need to get in there.
    There could be some assistance in targeting key AQIM, 
MUJAO, Ansar al-Dine leaders, Iyad ag Aghali, Mokhtar 
Belmokhtar. I can go on and on. There are several of them that 
are still floating around the region. And we have experience in 
other parts of the world that we can bring to bear in this 
area. That is number one.
    Number two, although USAID is doing some work, a lot more 
can be done. Again, in the band of the Sahara--and when I talk 
about northern Mali, northern Niger, southern Libya, southern 
Algeria, all the way across the northern Chad, the peoples of 
this part of the world are really marginalized by their host 
governments. A call from Kidal, for example. A person was 
telling me that there are very little food resources and 
medical resources. Medecins du Monde, which is an NGO that 
provides some medical aid, has a couple of workers up in Kidal 
but not enough to meet all of the needs. We need to get those 
folks up there. In order to do so, it requires, of course, soft 
elements to provide that security. So that is in a sense a 
criticism of the lack of involvement in the region.
    In answer to the questions you asked specifically to my 
statement, I have flown across the entire band of the Sahara. I 
used to do that for the Defense Intelligence Agency. I have 
landed on every dirt strip in the northern parts of the Sahara 
from Mali, Niger, and Chad. There is no radar. Movements of 
aircraft can go back and forth. People can land, say, in Kidal. 
They can land in Tessalit. They can land in other parts of the 
Sahara, literally without anybody knowing about it.
    Number two, the movements across the Sahara in some of 
these areas is difficult because of the geography. If you take 
the highest peaks of the mountains in, say, southern Algeria, 
the Ahaggar Mountains, into the Adrars in Mali and the Iron 
Mountains in Niger, that band over there has some very 
treacherous terrain. And people move very freely within those 
areas. It is very difficult for the host countries to have any 
visibility or control. So we need to do that, in effect.
    In terms of messaging, AQIM is very apt. Like I said, they 
have a Twitter account. And they have used Facebook 
continuously. There was a Facebook page. And I mentioned that 
in my written statement. That popped up after the attack on the 
gas plant in Algeria. Mokhtar Belmokhtar, the guy who crafted 
the strategy for its face, went on Facebook on a site called 
the Derna Media Center, which stands for Derna, Libya. Within a 
matter of weeks, it was taken down. But the number of people 
that joined that literally in a 2-week span was 4,000 
basically, counting Mokhtar Belmokhtar as a hero of what he did 
in Algeria.
    It doesn't mean all of these people are joining AQIM. 
However, it means that they are getting an audience, whether it 
is through Twitter, it is through Facebook, or whatnot. What we 
need to do is counter that in order to prevent additional 
recruits in the future and to prevent things like we are seeing 
right now in Mali: Suicide bombers.
    Ms. Bass. You mentioned Mokhtar Belmokhtar. I thought he 
was killed.
    Mr. Atallah. Ma'am, he wasn't killed. That was a mention 
from the Chadian side. The Chadian President came out and said 
that he was killed, but Mokhtar Belmokhtar is still alive. In 
fact, jihadi forums came out and did say publicly that he is 
still alive.
    The only person who is confirmed killed--and the French had 
to confirm it publicly--was Abou Zeid. There are several 
others, but Mokhtar Belmokhtar is still around.
    Ms. Bass. Thank you.
    Mr. Atallah. Thank you, ma'am.
    Mr. Nedelcovych. I think we just really have to ask 
ourselves the very basic question. And that is, is it the 
illness we are going after or the symptoms? You know, fighting 
terrorism, fighting the mokhtars by whatever name is a little 
bit like that game you have, the groundhog that comes up. You 
smash its head here, and it pops up here. You smash it here. It 
pops up there. It is never ending. I mean, if one does not get 
in there and treat that hunger and that poverty and that 
desperation, you just simply cannot win the war. You cannot.
    So the question then becomes, why, yes, this has to be 
done. Can we and how do we get to the real root issues so that 
in the end, it is the people living in that area? It is their 
leaderships that have to come back forward and say, ``Okay. 
What are we going to do? We are not going to stabilize. They 
are going to have to stabilize.'' I mean, let's be honest in 
the end. What is the only answer there?
    I was chuckling earlier. I visited my grandmother when I 
was studying political philosophy. And, you know, she was the 
grandmother from the old society. ``This is very brilliant. You 
guys are all very wise, but can I spread this on bread and eat 
it? Can I do that, that wisdom of yours?'' And there is too 
much, at times, focus elections. And there is going to be a 
discussion.
    I mean, I don't even want to count how many national 
dialogues have gone on in various countries on this continent, 
but when do we get on? When does the civil society and the 
people all say, ``What about us? We want to eat. We want to 
grow up like the rest of the world is going forward.''
    But, really, I think that focus has got to come also from 
the people themselves, their own national leadership to pull 
out what is in the end the absolute necessity. And that is 
treat the disease, not the symptom. It is poverty. It is 
hunger. It is desperation. And that is where if there is a 
positive criticism, it is a realization from the development 
agency and others. There are no surprises.
    It is about every so many years. There is instability and 
so many years. We could have predicted everything that has been 
happening. The issue is recognize it and then deal with it with 
the amount of time that is necessary. If it is 20 years, if it 
is these kinds of resources, recognize where it is and do it or 
say, ``You know what? We can't do it.'' That is the reality to 
me.
    Over. Thank you.
    Mr. Akuetteh. Thank you again, Mr. Chairman. In terms of 
constructive, if I might, my colleague's construction 
suggestion, you know, if you look, Mali, Mali was very 
important in terms of U.S. security activities in the region 
prior to the war and the coup. And since then, clearly, the 
French and the Europeans have a heavy presence.
    My suggestion then will be for the U.S. to say, ``Look, we 
weren't in here just to kill our enemies. And if some other 
soldiers are here, then we are not interested.'' It should be, 
actually, I would like the U.S. to send a message to the 
Malians and the regions that ``We want to play a big role in 
your reconstruction and your recovery.'' So that will be that 
the U.S. shall have a bigger presence.
    I did a little calculation of the pledges in Brussels. And 
from what I can tell, based on what the U.S. has already put 
down in their request that they have made to Congress--and I 
could have gotten some things wrong, but it is about a 5-
percent contribution to what has been pledged for Mali. I wish 
it was more.
    And, secondly, in terms of specific things, again, I think 
Mali because it is the test, what the U.S. does with Mali sends 
a message to the rest of the region--and I will say the 
elections. Again, there are already some signs. I don't think 
the elections can be stopped or rolled back, but I do think 
that there should be a contingency plan for quickly reacting 
and helping the Malians make sure that it goes well.
    And, finally, my big point, which is that we need to do a 
review, to say, ``Over these years and with Libya and Mali 
having happened, what have we learned? How can we reengage the 
region to have security? Because security comes first and good 
governance comes first and other things will follow.''
    Thank you again.
    Mr. Smith. Thank you very much for your testimonies. Thank 
you for your insights and counsel. It is very helpful to the 
committees that have met to receive it. And we will follow up 
on it. So I thank you so very much.
    I would also ask unanimous consent that a written testimony 
from Shari Berenbach, President and CEO of the United States 
African Development Foundation, be made a part of the record.
    I want to thank Speaker Toure for being here for the entire 
day of the hearing. We often have visiting diplomats and even 
Speakers like yourself. This is the first time--and this is 
about my 400th hearing--that we have ever had a Speaker come 
and stay and listen to the entirety of the proceeding. You do 
us a great honor by doing so. I want you to thank you for your 
Ambassador, Maamoun Keita, who has been a great help over the 
years and will continue to be, I am sure. And again I want to 
thank our witnesses. Your testimonies were extraordinary.
    The hearing is adjourned.
    [Whereupon, at 4:51 p.m., the committees were adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Question for the record posed by the Honorable Christopher H. Smith, a 
Representative in Congress from the State of New Jersey, and chairman, 
    Subcommittee on Africa, Global Health, Global Human Rights, and 
   International Organizations, to the Honorable Nancy E. Lindborg, 
      Assistant Administrator, Bureau for Democracy, Conflict and 
   Humanitarian Assistance, U.S. Agency for International Development
Question:
    Please provide a breakout of the extent that we are partnering with 
faith-based groups in the Sahel.
Response:
    No response was received prior to printing.

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
